<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2015

                              ----------                              


                        THURSDAY, MARCH 13, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:43 a.m., in room SH-216, Hart 
Senate Office Building, Hon. Patrick J. Leahy (chairman) 
presiding.
    Present: Senators Leahy, Landrieu, Shaheen, Coons, Graham, 
Kirk, Coats, Blunt, and Boozman.

                          DEPARTMENT OF STATE

                        Office of the Secretary

STATEMENT OF JOHN F. KERRY, SECRETARY


             opening statement of senator patrick j. leahy


    Senator Leahy. Good morning. Only because these guys have 
the job I always wanted to have, to be one of the 
photographers, I don't want to call them off too quickly.
    Senator Graham. It is never too late for a career change.
    Senator Leahy. I was recently speaking to a group of 
prosecutors in Vermont, and I said the best job I ever had was 
as a prosecutor. I don't know why I ever left it. Five hands 
went up in the room and said, ``We'll trade.'' But I didn't.
    I do appreciate the Secretary being here. He has a very 
busy and peripatetic schedule. The Secretary and I have been 
friends for decades, and I will say publicly what I told 
Secretary Kerry privately: I am extremely impressed and proud 
about the way he has embraced what is, especially these days, 
one of the most difficult jobs in the world. And it is hard to 
imagine anybody who walked into that job more qualified or 
prepared than you. I appreciate what you have done. I think the 
world appreciates what you have done.
    Senator Mikulski is on the floor right now. She is an 
active member and strong supporter of the subcommittee, and 
thanks to her and Senator Shelby, we got our bills done last 
year. We are going to do everything possible to get them 
finished this year.
    You and I have talked about how it makes it a little easier 
if you know exactly how much money you are going to have or 
don't have.
    I also want to take a moment, I don't want to create 
problems for him at home, but I want to acknowledge Senator 
Graham.
    Senator Graham. We need to move on.
    Senator Leahy. He travels around the world to see how our 
programs are working or not working. He and I have a close 
friendship, and we have tried to keep this subcommittee as 
nonpartisan as possible.
    Senator Graham. Absolutely.
    Senator Leahy. He has been a strong defender of the 
national interests that the budget protects, and we have tried 
to bring, each time, our bill to the floor with both of us 
voting on it.
    Obviously, today we are focused on Russia's invasion of 
Ukraine, and there will be questions about that, but there are 
also Iran, Syria, Egypt, the Israeli-Palestinian conflict, 
North Korea, Venezuela, Sudan, weapons from Iran intercepted. 
It is an exhausting list.
    And, Mr. Secretary, fortunately, you are able to work 40 
hours a day, and juggle all of this. But it is almost, with it 
all going on, the American people have forgotten about 
Afghanistan, Iraq, two enormously costly military ventures that 
went terribly awry. We and the people of these countries will 
be paying for these mistakes for the care for wounded soldiers 
and their families for lifetimes to come.
    Iraq alone will eventually cost the U.S. taxpayers $2 
trillion, the only war this country has ever entered where we 
did not have a tax to pay for it. We just put it on a credit 
card.
    Around the world, we see civil society organizations and 
journalists are harassed and persecuted, many forced to flee 
their countries. Independence of the judiciary, fundamental to 
any democracy and fragile in many countries, is under threat. 
Violence and discrimination against women; shortages of water, 
energy, food; climate change; religious extremism; trafficking 
in arms, drugs, people, and wildlife; there is no issue that 
this Secretary or subcommittee can ignore.
    The world looks more dangerous to many of us than it did 
during the Cold War. I don't think anyone could say that the 
administration's 2015 budget request for this subcommittee is 
excessive. In fact it is half a billion dollars, $536 million, 
below the 2014 level.
    I know our costs in Iraq have decreased, but there are 
several areas where I see potential problems, particularly the 
cut in funding for refugees and other humanitarian programs.
    And I worry about the Western Hemisphere, including 
Colombia. If there is a peace agreement to try to end the 
conflict in Colombia--and I support what President Santos is 
doing at some political risk to himself; I traveled there and 
talked to him about this--we are going to want to help him 
secure that peace.
    The many challenges that we face as a Nation, the costly 
mistakes since 9/11 that damaged our image and eroded our 
influence, I would like to think that when it comes to foreign 
policy, Democrats and Republicans can learn from history and 
learn to speak with one voice for the sake of the United States 
and this great country.
    I would like to think that after fighting two long, 
inconclusive wars, the Secretary's diplomatic efforts in the 
Middle East and with Iran would have strong bipartisan support.
    Right now, we don't need a Democratic foreign policy or a 
Republican foreign policy. We need an American foreign policy 
that is rooted in our values and the example we set and which 
we can credibly ask others to follow.


                           prepared statement


    So I yield to Senator Graham, and then, Mr. Secretary, the 
floor will be yours, unless the chairwoman comes and wishes to 
make a couple words.
    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    We are here to discuss President Obama's fiscal year 2015 budget 
for the Department of State and foreign operations.
    Mr. Secretary, welcome. I want to say how impressed I am by the way 
you have embraced what can only be described as one of the most 
challenging jobs in the world. It is hard to imagine anyone more 
qualified for it, and we are very fortunate to have you there.
    I also want to recognize our committee chairwoman, Senator 
Mikulski, who has long been an active member and strong supporter of 
this subcommittee. Thanks to her and Senator Shelby, we got our bills 
done last year and we are going to do everything possible to finish our 
work this year by October 1.
    I also want to acknowledge Senator Graham. He travels around the 
world to see how programs are working--or not working--and he has been 
a strong defender of this budget and the important national interests 
it protects.
    This subcommittee has produced bipartisan bills for as long as I 
have been here, and we intend to work the same way this year.
    The world today is focused on Russia's invasion of Ukraine, and we 
will have many questions about that. But there is also Iran, Syria, 
Egypt, the Israeli-Palestinian conflict, North Korea, Venezuela, 
Sudan--it is an exhausting list. The Secretary is juggling them all.
    Yet with everything else going on, it is almost as if Congress and 
the American people have forgotten about Afghanistan and Iraq, two 
enormously costly military adventures that went terribly awry. We and 
the people of those countries will be paying for those mistakes, and 
for the care of our wounded soldiers and their families, for lifetimes 
to come.
    Around the world, civil society organizations and journalists are 
harassed and persecuted. Many are forced to flee their countries. The 
independence of the judiciary, fundamental to any democracy and fragile 
in many countries, is under threat.
    Violence and discrimination against women; shortages of water, 
energy and food; climate change; religious extremism; the trafficking 
in arms, drugs, people, and wildlife--there is no issue that the 
Secretary or this subcommittee can ignore.
    The world today looks more dangerous to many of us than it did 
during the Cold War, and I don't think anyone can credibly say that the 
administration's 2015 budget request for this subcommittee is 
excessive.
    In fact, it is $536 million below the 2014 level. While our costs 
in Iraq have decreased there are several areas where I see potential 
problems, particularly the cut in funding for refugees and other 
humanitarian programs.
    I also worry about the Western Hemisphere, including Colombia. If 
there is a peace agreement to try to end that conflict--and I support 
what President Santos is doing, at some political risk to himself--we 
will want to help him secure the peace.
    With the many challenges we face as a Nation and the costly 
mistakes since 9/11 that damaged our image and eroded our influence, I 
would like to think that at least when it comes to foreign policy, 
Democrats and Republicans can learn from history and find ways to speak 
with one voice.
    I would like to think that after fighting two long, inconclusive 
wars the Secretary's diplomatic efforts in the Middle East and with 
Iran would have strong bipartisan support.
    We do not need a Democratic foreign policy or a Republican foreign 
policy. We need an American foreign policy that is consistently rooted 
in our values and the example we set, and which we can credibly ask 
others to follow.
    After Senator Graham makes his opening remarks Mr. Secretary the 
floor will be yours.
    We will then have 7-minute rounds of questions in order of 
appearance.

                  STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. Thank you, Mr. Chairman. I really have 
enjoyed this committee. I want to compliment the members on our 
side. At a time of $17 trillion national debt and a country 
being financially strapped, bipartisanship has reigned when it 
comes to the 1 percent of the budget that the country has 
available to us to affect outcomes throughout the world and 
help people in a way that will help us.
    So Senator Coats is a former Ambassador to Germany. Mark 
Kirk is sort of legendary in his understanding and support for 
Israel and the Middle East.
    And when I hear at home, ``If we just got rid of foreign 
aid, our problems would be solved,'' I understand people 
feeling frustrated about the world and how dangerous it is, but 
this 1 percent I think has been well-managed, better managed 
over time.
    Mr. Secretary, your folks are doing a great job in Africa. 
I am spending a lot of time in Africa, and you can see what 
President Bush started, and President Clinton. But the Bush 
initiatives have been carried on by the Obama administration. I 
want to have a hearing one day about the rate of return on 
investment, and the amount of money that we set aside to fight 
AIDS and malaria to develop health care opportunities on a 
continent that is under siege.
    For people in Africa, our investment is not lost upon them. 
The Chinese are there for a different purpose. They see America 
and NGOs and the faith-based community in a very positive 
light. This is where, in many ways, radical Islam is moving in 
that direction. And we are going to cut them off.
    We are going to cut them off not just militarily.
    So, Mr. Chairman, we have a few differences, but when it 
comes to trying to keep this bipartisan and use the money 
wisely to help the American taxpayer--whether it is helping 
Jordan, which is being overrun by refugees--we work well with 
the State Department.
    Mr. Secretary, I don't know how many miles a month you 
travel, but nobody can ever say that John Kerry has not been 
trying. You show up everywhere in the world where there is a 
conflict.
    And I want to help where I can. We will have some 
differences, but on behalf of the American people, thank you 
for being involved.
    And to all committee members, particularly on the 
Republican side, thank you for seeing the benefit that this 
account can offer our Nation.
    Senator Leahy. Please go ahead, Mr. Secretary.

                   SUMMARY STATEMENT OF JOHN F. KERRY

    Secretary Kerry. Mr. Chairman, thank you very much. And 
Ranking Member Graham and all the members of the committee, 
Senators, good friends of mine, I am very appreciative of the 
opportunity to be able to testify here.
    Even more so, I am really grateful for each of your service 
on this committee. I was around here long enough to know the 
difference between those committees that are easy to translate 
at home, and this is one of the hardest. This and the Foreign 
Relations Committee, it is tough, because people at home don't 
always see the connection.
    And, Senator Graham, I want to pick up on your comments on 
that in a minute, if I can.
    I am going to be very brief with my opening statement. I 
want to begin by, first of all, just telling you what a 
privilege it is for me to lead this extraordinary department, 
the Department of State, USAID, and the remarkable men and 
women who put themselves on the line every single day.
    They are not wearing a uniform, but a whole bunch of them 
are taking risks in this dangerous world we live in. And they 
are doing it because of their love of country, because of their 
desire to try to change things for the better in the world, and 
take our values abroad and help to protect our interests. And 
they do it in amazing ways.
    Senator Graham just mentioned the effort, trying. I believe 
we are getting a lot of things done, and I believe we are 
making a difference in many places. We can talk about that in 
the course of the morning, because it really is part of what 
translates into the return on investment that Senator Graham 
talked about.
    And there are just so many different parts of the world 
where people don't see how America has made the difference, but 
we are making a difference in place after place. And that 
people say okay, so what? What does that mean? It makes America 
more secure.
    It also opens up relationships that wind up growing 
economies, which means business for American companies, it 
means jobs at home, in every State, every district, in America. 
And we can show that. And we need to do more of showing it, and 
we intend to.
    But right now, I would just say to all of you that the one 
thing that struck me more than anything else in the course of 
the last year, and I say this without any chauvinism or 
arrogance at all, but it is the degree to which our leadership 
does make a difference. It is the degree to which, if we are 
not engaged in one place or another, bad things often happen.
    We are not the only force. I am not claiming that. We have 
great allies, great partners in these efforts. And some of them 
are equally as indispensable. But we do make that kind of 
difference.
    Last week, I was standing in Kiev, looking at the lampposts 
that were riddled with bullet holes, barricades made up of 
tires and bedposts and different detritus from homes, and an 
amazing film of burnt ash and mud on the street. And these 
remarkable memorials that have grown up spontaneously to the 
people who were killed there, flowers piled on flowers, 
candles, photographs of those who died, it was incredibly 
moving.
    And to talk to the people there and listen to them express 
their hopes, their desire to just be able to make choices like 
people in other countries, it was a privilege to listen to 
them. But I have to tell you, they are waiting for the world to 
back them up in these aspirations and to help them.
    And what is true in Kiev is true in so many other places 
where people look to us to be able to try to provide 
opportunities. South Sudan, a nation which many of you helped 
give birth to, is struggling now. It needs our support to have 
a chance of surviving beyond its infamy, so it doesn't fall 
back into its history of being the longest war in Africa that 
has taken more than 2 million lives.
    What we do matters in the Maghreb, where the State 
Department is coordinating with France in order to take down Al 
Qaeda there, make sure that French forces have the technology 
and weapons that they need.
    What we do matters in Central Asia, where we are working 
with several nations to stop the trafficking of narcotics and 
keep more heroin off our streets, and cut off financing for 
terrorists and extremists, all of which makes Americans safer.
    What we do matters in the Korean Peninsula, where we are 
working with our partners in the Republic of Korea, to make 
sure that we can meet any threat and to work toward the 
denuclearization of the Korean Peninsula. I was recently, a few 
weeks ago, in China, where we had very serious discussions 
about what the Chinese can do in addition to what they are 
already doing in order to have a greater impact on the 
denuclearization process. And we are working with Japan and the 
Republic of Korea in order to make sure they don't feel so 
threatened that they move toward nuclearization and self-help.
    Thanks to the State Department's work, the South Koreans 
are now making the largest contribution they have ever made 
toward our joint security agreement.
    What we do matters significantly where we support freedom 
of religion, and that is true from Bosnia to Indonesia, 
protecting universal rights of people to practice their faith 
freely and working to bring an end to the scourge of anti-
Semitism.
    And it isn't just what we do in the budget. Mr. Chairman, 
you know this better than anybody. It is an essential part of 
who we are as Americans.
    I also know from my experience here in Congress, 
particularly under the budget constraints that you have 
referred to, that you shouldn't tell anybody that anything that 
costs billions of dollars is a bargain. We understand this is 
important money to American citizens.
    But when you consider that the American people pay just 1 
penny of every dollar in the tax dollar for the $46.2 billion 
that is our budget, flatlined and down from where it was in 
2013, I believe the American people are getting an 
extraordinary return on investment.
    Now, some Members of Congress believe we ought to have 
larger budget cuts, but I have to say to you, when I measure 
what is happening in the world, the challenge and the Maghreb, 
in the Sahel, the Levant, and all of the Middle East, in South 
Asia, the challenge of huge numbers of young people under the 
age of 30 who are yearning for opportunity, yearning for their 
opportunity to touch what they see and know everybody in the 
world has today, because we are such an interconnected world, 
when I see the possibility of radical religious extremism 
grabbing them instead of the opportunity to have an education, 
the opportunity to get a good job, we better understand that 
threat to us. That is real.
    And we will deal with it, one way or another, either now 
and get ahead of it, or later when it is a bigger problem.
    For me, it is no coincidence that the places where we face 
some of the greatest national security challenges are also the 
places where the governments deny basic human rights and 
opportunities for their people, and where there is very little 
public discourse and accountability with any kind of free press 
or media or capacity for people to speak out.
    So that is why supporting human rights and stronger civil 
societies and development assistance, investing in our 
partnerships with allies, these are the surest ways to prevent 
the kind of horrible human tragedies that we are in the 
business of addressing in today's very complicated world.
    I also think that we have to remember that foreign policy, 
in 2014, is not all foreign. The fact is that we are, in the 
State Department, increasingly focused on economics, focused on 
building our strength here at home, on advancing American 
businesses and creating job opportunities. Every time I speak 
to the Department of State, I talk about foreign policy as 
economic policy. And every Foreign Service Officer today, and 
every civil service officer now, must also become an economic 
officer. And we have changed the training at the Foreign 
Service Institute in order to take all of our initial recruits 
and begin to structure ourselves differently than in the past.
    Some people express skepticism about this. But let me just 
tell you, our Embassy in Zambia recently helped create jobs in 
New Jersey. The patient advocacy of our diplomats helped an 
American construction company land an $85 million contract. 
They are building 144 bridges, and they have the potential to 
do far more. There may be a follow-on multi-hundred-million 
dollar contract.
    Our consular staff in Calcutta, they helped bring 
Caterpillar together with a company in India to develop a $500 
billion power plant. When 95 percent of the world's consumers 
live outside of our market, and when foreign governments are 
out there extremely aggressively chasing our RFPs, requests for 
proposals, contracts, jobs, opportunities, and they are backing 
their companies in a very significant way, we need to 
understand that we are living in a different world than we were 
in the Cold War, when America was the single powerhouse economy 
of the world and everybody else was recovering from World War 
II.
    Then you feel you could make mistakes and still win. Now 
you can't. It is a different economic marketplace.
    We believe this budget strengthens our partnerships where 
so many of our economic and security interests converge, in the 
East Asian Pacific region. And with this budget, we are 
bolstering our bedrock alliances with South Korea and Japan. 
And we are developing deeper partnership with Vietnam, 
Indonesia, the Philippines, and others, as they assume greater 
security roles.
    Finally, I would just say to everybody, as we make these 
investments and project our values and our power in places that 
we need to in order to protect our interests, there is no way 
that we can eliminate all risk, especially in a world where our 
interests are not confined to prosperous capitals. We can and 
will do more to mitigate risks, and I am pleased to tell you 
that the budget that we have implements all of the 
recommendations of our Benghazi report and makes additional 
investments above and beyond those.

                           PREPARED STATEMENT

    So it is fair to say we are doing the best we can in a 
difficult budget environment where we have caps and we had a 
budget agreement. I firmly believe that, with your help, and I 
thank you for it, this committee has done an extraordinary job 
of helping us to be able to strike a balance between the need 
to sustain long-term investments in American leadership and the 
political imperative to tighten our belts.
    So, thank you very much, Mr. Chairman. I look forward to 
having a discussion on these priorities.
    [The statement follows:]
                  Prepared Statement of John F. Kerry
    I want to thank Chairman Leahy and Ranking Member Graham for their 
leadership, as well as each member of the subcommittee for their 
commitment to America's leadership in the world.
    Of course, I was serving here with you for quite a while--29 years 
plus. Believe me, I know that choosing to be on this committee doesn't 
win you many votes back home. The work you do here doesn't drive 
fundraising. But it matters--it really matters--and this has never been 
more clear to me than over the past year--when I've seen firsthand and 
over and over again, just how much the world looks to the United States 
on issue after issue.
    Bringing people together and finding answers to tough challenges--
that's what the United States does. If we ``get caught trying,'' then 
we're living up to what the world expects from us and what we expect 
from ourselves.
    I think that's especially true in Ukraine. From the very beginning 
we have made our goal clear: to help the people of Ukraine achieve what 
brought thousands upon thousands into the Maidan in the first place. 
Our interest is in protecting the sovereignty, independence and 
territorial integrity of Ukraine, and with European partners and 
others, we absolutely have a responsibility to be engaged.
    Certainly we have to be clear-eyed about the challenges. But from 
the beginning, we've made it known that we are willing to sit down to 
try and deescalate this situation. That is why President Obama asked me 
to leave this evening for London and meet with Russia's Foreign 
Minister Sergey Lavrov tomorrow.
    I will make clear again, as we have throughout, that while we 
respect that Russia has interests in Ukraine, particularly in Crimea, 
that in no way--no way--justifies the military intervention the world 
has witnessed. There are many other legitimate ways to address Russia's 
concerns.
    In my discussions with Minister Lavrov I'll also make it clear that 
Russia has reasons to make the right choice. The costs for Russia's 
violations of international law--the cost of making Russia more 
isolated--not just from the United States, but from the international 
community--is a cost that Russia should not want to bear, and doesn't 
have to bear if they make a better choice.
    Congress' support is going to be absolutely vital. Whether its loan 
guarantees to help support a free Ukraine, an assistance stream, or 
support for additional sanctions if that's what we need, you give us 
the tools to accomplish our goals.
    So it couldn't be any clearer, what we do here really matters. When 
I think about that I remember last week in Kiev--standing in the spot 
where Ukraine's former president had snipers pick off peaceful 
protesters one by one. It was very moving to speak with some of the 
Ukrainian people and hear how much they look to us.
    The same is true far from Kiev or what's in the headlines. What we 
do matters to South Sudan, a nation some of you helped give birth to--a 
nation that's now struggling and needs our support to have a chance of 
surviving beyond infancy.
    What we do matters in the Maghreb, where the State Department is 
coordinating with France to take down al-Qaeda, making sure French 
forces have the technology and weapons they need.
    What we do matters in Central Asia, where we're working with 
several nations to stop the trafficking of narcotics, to keep more 
heroin off our streets and cut off financing for terrorists and 
extremists.
    What we do matters on the Korean Peninsula, where we are working 
with our partners from the Republic of Korea to make sure we can meet 
any threat and for the denuclearization of the Korean Peninsula. Thanks 
to the State Department's work, the South Koreans are now making the 
largest financial contribution to these efforts in the history of our 
joint security agreement.
    What we do matters everywhere we support religious freedom, from 
Bosnia to Indonesia. Protecting the universal rights of people to 
practice their faith freely and working to bring an end to the scourge 
of anti-Semitism--this isn't just what we do in this budget; this is an 
essential part of who we are as Americans.
    Now, I spent enough time in Congress to know that you shouldn't 
call anything that costs billions of dollars a bargain. But when you 
consider that the American people pay just one penny of every tax 
dollar for the $46.2 billion in investments in this request, I believe 
the American people are getting an extraordinary return on their 
investment.
    Our base request is $40.3 billion--and that's in line with what was 
appropriated to the Department and USAID last year. We're making a 
constant effort to be more effective and agile, and as you well know, 
we're doing that under some tight constraints.
    The additional part of our request for Overseas Contingency 
Operations (OCO), totals $5.9 billion. OCO provides the State 
Department and USAID the ability to respond to the humanitarian crisis 
in Syria. It gives us flexibility to meet some unanticipated 
peacekeeping needs. OCO funds our programs in Iraq, Afghanistan and 
Pakistan, where we continue to right-size our commitments.
    I know it might be easy for some members of Congress to support 
larger cuts in this budget. What's impossible to calculate is the far 
greater price our country would pay for inaction. What's impossible to 
calculate are the dangers in a world without American leadership and 
the vacuum that would create for extremists and ideologues to exploit.
    For me it's no coincidence that the places where we face some of 
the greatest national security challenges are also places where 
governments deny basic human rights and opportunities for their people. 
That's why supporting human rights and stronger civil societies, 
development assistance, investing in our partnerships with our allies: 
these are the surest ways to prevent the kind of horrible human tragedy 
we see Syria today.
    I know some of you have looked these refugees in the eyes and seen 
their numbers, as I have. There is simply no way the richest and most 
powerful nation in the world can simply look away. For both the Syrian 
people and for Lebanon, Turkey, and Jordan, trying to keep their 
societies running and keep extremists at bay as they cope with a 
refugee crisis, our support could not be more urgent. It is both a 
moral and security imperative.
    With our assistance to the Philippines, recovering from one of the 
worst natural disasters in its history, we are also leading the way. 
Through a $56 million contribution from State and USAID, we are working 
with our partners so that hundreds of thousands of people can put their 
lives back together. We're helping one of our oldest allies in the 
Pacific get back on its path to prosperity.
    Within our core budget request is also a $1.35 billion contribution 
to the Global Fund to fight AIDS, Tuberculosis, and Malaria. The goal 
that President Obama has set today for an AIDS free generation would 
have been absolutely unthinkable even 10 years ago but today that goal 
is within reach. Because of PEPFAR's incredible success, we are now 
working to transition the leadership of these life-saving programs to 
local hands with Rwanda, Namibia, and South Africa some of the first to 
take the reins.
    Because of our leadership, children waking up today in Sub-Saharan 
Africa face a far different future than they did a decade ago. Our 
commitment clearly matters. And just as our partners in Asia and Europe 
made a transition from being recipients of American aid to becoming 
donors, that kind of transformation is now possible in Africa.
    And to make sure that emerging markets around the world make the 
most of their opportunities, we need reforms to the International 
Monetary Fund. Just think about this: Brazil, Chile, Columbia, India, 
Korea, Mexico, Peru, the Philippines, Thailand--all of these nations 
once borrowed from the IMF. Now they are creditors with some of the 
most dynamic economies in the world.
    Ukraine's struggle for independence, particularly its financial 
independence, depends on Congress ratifying reforms that will help 
Ukraine borrow through the IMF's Rapid Financing Instrument. Our $1 
billion loan guarantee is needed urgently but it's only through the 
IMF--a reformed IMF--that Ukraine will receive the additional help it 
needs to stand on its own two feet.
    Our work with the IMF is vital to global economic stability. But 
remaining absolutely focused on creating opportunity here at home is 
essential. That means we have to be strong advocates for America's 
commercial interests across the globe. And that's why I've charged each 
of Foreign Service Officers with an economic mission: to create 
opportunities for Americans and work with our businesses to gain a 
bigger foothold abroad.
    I know there's some skepticism about this kind of economic 
diplomacy. But it's hard to argue with some of the results. Look at how 
our Embassy in Zambia helped create jobs in New Jersey. The patient 
advocacy of our diplomats helped an American construction company land 
an $85 million contract. They're building 144 bridges and have the 
potential to do far more.
    Look at the work of our consular staff in Kolkata. They helped 
bring Caterpillar together with a company in India to develop a $500 
million power plant.
    Look at what Embassy Wellington and Embassy Apia in Samoa are 
doing. Our diplomats helped a company right here on the East Coast land 
a $350 million contract to lay fiber optics across the Pacific.
    When 95 percent of the world's consumers live outside of our market 
and when foreign governments are out there, aggressively backing their 
own businesses, this is the kind of advocacy American workers need to 
compete.
    Telling our story where it matters most is vital to both the 
success of our businesses and the appeal of our values. With this 
budget's investments in stronger people to people ties, educational 
exchange and countering violent extremism, we are shaping the debate. 
We are keeping traditional programs strong, like those for 
International Visitor Leadership and English language programs. At the 
same time we are revitalizing the way we engage through quick-impact 
investments to shape emerging leaders in civil society.
    We call some of these investments quick impact but you and I both 
know their lasting benefits. I can't tell you how many times foreign 
leaders share their experience of studying in the United States and the 
permanent and positive impression it made. And all of you who have 
colleges and universities in your districts also see the financial 
impact from the $22 billion each year that international students bring 
to the U.S. economy.
    This budget also strengthens our partnerships where so many of our 
economic and security interests converge, in the East Asia and Pacific 
region. With this budget we are bolstering our bedrock alliances with 
South Korea and Japan. We're developing deeper partnerships with 
Vietnam, Indonesia, the Philippines, and others, as they assume greater 
security roles.
    As we make these investments around the world, we can never 
eliminate every risk--especially in a world where our vital interests 
are not confined to secure, prosperous capitals. But we can and will do 
more to mitigate risks and keep our people safe. This budget implements 
the recommendations of the independent Benghazi Accountability Review 
Board (ARB) and makes additional investments that go above and beyond.
    My friends, I think it's fair to say that we are doing the best we 
can in a difficult budget environment. I firmly believe that this 
budget strikes a balance between the need to sustain long-term 
investments in American leadership and the political imperative to 
tighten our belts. I believe this budget is a blueprint for providing 
the minimum our people need to carry out their mission: to enhance 
national security, to promote global stability and prosperity, and to 
help the American people seize the opportunities in a changing world. 
Thank you.

    Senator Leahy. Thank you for a very complete review.

                        U.S. SUPPORT OF UKRAINE

    Fortunately, I come from a State that believes in diplomacy 
and reaching out. We export more per capita, I believe, than 
any other State, even though we are a small State. We share a 
border with a great and wonderful friend, Canada. We share 
another border with your own State of Massachusetts. And I will 
stop at that point.
    I am looking, right now, we have two different pieces of 
legislation on Ukraine, one from the House, the other from the 
Senate Foreign Relations Committee, to authorize assistance for 
Ukraine. I think all of us hope we can get agreement on a bill 
that the President can sign, so we just don't have speeches on 
the floors of both bodies, but no piece of legislation at the 
end.
    One of the things that seems to be missing from the press 
releases and op-eds, although I enjoy reading them, is that it 
is the Appropriations Committee, and actually this 
subcommittee, in particular, that will actually decide what 
assistance and how much to provide.
    And, of course, that will depend on what evolves in Ukraine 
over the coming months. None of us can predict that.
    I am sure that others have questions about Ukraine, but let 
me start with this. Many foreign policy experts, including your 
predecessors Henry Kissinger and Condoleezza Rice, and former 
Secretary of Defense Bob Gates, have offered opinions about how 
to respond to Russia's aggression in Crimea. Each of them 
recounts history, but then they each draw different conclusions 
and lessons from that history, and they advocate different 
responses, an indication that there is no unified view out 
there.
    How do you respond to former Secretary of Defense Bob 
Gates, who says he does not believe that Russia will give up 
Crimea? Is there another way to resolve this, that preserves 
Crimea as part of Ukraine, but also recognizes Russia's 
interest there?
    Secretary Kerry. Well, Mr. Chairman, the truth is we don't 
know the answer to that question yet. We can speculate.
    There are strong indications that could lead you to draw 
the conclusion Bob Gates did, and there are other thoughts out 
there that suggest that something short of the full annexation 
might also be achievable.
    Frankly, we won't know the answer to that until I meet with 
Foreign Minister Lavrov tomorrow in London. I talked to him 
briefly today. They are meeting in Russia in Sochi today with 
President Putin, their security team.
    My hope is that they will come aware of the fact that the 
international community is really strong and united on this 
issue.
    Senator Leahy. Let me ask you about that. Suppose the 
people of Crimea vote to leave Ukraine. The Russian parliament, 
which will do whatever President Putin tells it to, votes to 
annex Crimea, how is the U.S. and Europe, our allies, how do we 
respond at that point?
    Secretary Kerry. Well, I think the response will come well 
before that, Mr. Chairman. There will be a response of some 
kind to the referendum itself. In addition, if there is no sign 
of any capacity to be able to move forward and resolve this 
issue, there will be a very serious series of steps on Monday 
in Europe and here with respect to the options that are 
available to us.
    Now our choice is not to be put in the position of having 
to do that.
    Senator Leahy. I understand.
    Secretary Kerry. Our choice is to have a respect for the 
sovereignty and independence and integrity of the country of 
Ukraine. Our hope is to have Russia join in respecting 
international law.
    There is no justification, no legality to this referendum 
that is taking place. It violates international law. It 
violates the U.N. charter. It violates the Constitution of 
Ukraine.
    And I don't think anybody can believe that a hastily put 
together, rushed referendum taking place under the imprint of 
20,000-plus troops and all that has happened without debate, 
without opportunity, is a genuine referendum. But even if it 
were, I will just say one thing, I don't think there is much 
doubt, given the circumstances, what the vote is going to be. 
Nobody doubts that.
    So this is not a question mark. The question mark is, is 
Russia prepared to find a way to negotiate with Ukraine, with 
the contact group, with other countries involved, in order to 
be able to resolve this in a way that respects their legitimate 
interests, and they have legitimate interests, but respects 
them in a way that doesn't violate international law and is not 
at the butt of a rifle and a massive military imprint.
    Senator Leahy. Well, the new Government of Ukraine has made 
it very clear that they want closer ties with Europe. The 
Russians have basically invaded Crimea, notwithstanding the 
strange comments of President Putin that these are private 
people who bought uniforms at a store, which gave great fodder 
to the late-night comics. But are there other former Soviet 
republics who express interest in closer ties with Europe? And 
we could name several of them. Are they in similar danger of 
invasion by the Russian army?
    Secretary Kerry. They fear the ultimate possibility. They 
are not in danger of that as of today.
    But yes, I was talking this morning with the foreign 
ministers from the region, and they are all concerned about 
this rattling.
    But again, I think that the hope, Mr. Chairman, is that 
reason will prevail, but there is no guarantee of that 
whatsoever. The European Community is strongly united. They 
will meet on Monday.
    The President of the United States has made it clear he is 
prepared to move. He has already designated, without 
designating individuals, he has already issued an executive 
order creating the construct for personal sanctions, and we 
have a very clear list of those who would be included in the 
event that we can't move this process forward.
    Senator Leahy. Well, to add to this, because of the tension 
it creates with Russia, the very serious differences--I am glad 
you are meeting with the foreign minister. I wish you luck 
there. But having met with him at different times on other 
matters, I know that can be a difficult thing.
    But we are working with Russia, and you helped engineer 
this, and I applaud you for it, for the removal of chemical 
weapons from Syria. We worked with him, hoping we could bring 
this horrible, horrible tragedy to an end in Syria with the 
continuing humanitarian disaster of refugees, something that is 
destroying generations to come.
    We have our negotiations with Iran over its nuclear 
program. Russia is involved in that.
    Is it going to affect the removal of chemical weapons? The 
possibility of a diplomatic solution in Syria? And thirdly, the 
negotiations with Iran over its nuclear?
    Secretary Kerry. Well, we hope not, Mr. Chairman, but 
obviously it has the potential to. It has the capacity to.
    I have talked about that with Foreign Minister Lavrov. He 
is aware, we are aware, of that being one of the ingredients in 
this, which we hope would push people toward a more reasonable 
path. But there is no way to predict it.
    And the key will be to figure out whether or not President 
Putin is serious about looking for a way under international 
law to move this process forward.
    Can I just mention one thing quickly?
    Senator Leahy. Sure.

                   INTERNATIONAL MONETARY FUND (IMF)

    Secretary Kerry. You mentioned the IMF at the very 
beginning. I want to thank the committee, I want to thank the 
Senate, for being on track to do what is important here.
    We must have IMF reform. We must have a quota. And it would 
be a terrible message to Ukraine for everybody to be standing 
up talking appropriately about what is at stake, but then not 
to be able to follow through. The IMF is critical; we need that 
help.
    Senator Leahy. Senator Graham and I joined together to get 
this through the Senate, and we got it through the Senate with 
a bipartisan majority. I met with Ms. Lagarde and some House 
Members in Davos. She expressed enormous concerns that the 
House dropped it. I tried to make it very clear, we did it here 
in the Senate, and we are prepared to do it. And I wish they 
had, because it created enormous problems for the United 
States, as you know. You were having discussions with them, as 
the Secretary of the Treasury and others had.
    It was a huge, huge blow to the United States, the fact 
that the other body did not go along with us on this.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    So many places to talk about, such little time. I mean, we 
could have a second round of questions. But let us get on with 
the IMF.
    Do you agree, Mr. Secretary, that the IMF, from an American 
point of view, is a tool in the toolbox that has shown to be a 
wise investment?
    Secretary Kerry. Absolutely. In fact, a huge number of 
countries that were IMF recipients are now donors in one way or 
another to economic initiatives around the world.
    Senator Graham. And this is the one area where it is not 
just our money. You have the international community coming 
together and the loans are given to reinforce the good guys, 
deter the bad guys, and bring about reform to make countries 
like Ukraine more stable. Is that correct?
    Secretary Kerry. Absolutely, Senator.
    Senator Graham. To my colleagues: I can understand being 
war weary. It is a natural response to being at war with 
radical Islam and other entities for a long time. But I can't 
understand taking everything off the table.
    If never use military force--I am certain we want to do 
that as a last resort. If we don't have foreign assistance. If 
we don't want to be involved in the IMF. What do we do? We just 
hope things get better?
    So I am all in, in trying to pursue what the Senate Foreign 
Relations----
    Secretary Kerry. Can I just say very quickly, Senator, our 
leadership on this is now in doubt.
    When people say the United States is retreating, we are 
inadvertently hurting ourselves by sending a message that we 
are not prepared to lead and step up and complete the task.
    We are the only country that hasn't ratified this. And the 
implications of that are just enormous in terms of American 
leadership. The IMF is the tool that helps to bring countries 
into alignment on their transparency, their accountability, 
their reforms, their market economy, all of the things that are 
in our interests.
    So I could not underscore more, Senator Graham, the 
importance of what you are saying and the importance of us 
following through on this.
    Senator Graham. Well, I have been critical, I think 
sometimes forcefully, and appropriately so, about the 
administration's foreign policy. But the Congress needs to do 
some self-evaluation of where we are as a body, what is our 
role in all of this.

                         SYRIAN REFUGEE CRISIS

    Let's talk about Syria very quickly. Do you think Assad is 
winning right now, on the battlefield?
    Secretary Kerry. I don't think anybody is winning, but he 
is not losing.
    Senator Graham. Okay.
    Secretary Kerry. And the way I would phrase it is he is 
doing better than he was doing. He has gotten somewhat of an 
upper hand, but this thing runs like a roller coaster. It is 
not going to be solved militarily.
    Senator Graham. The only trajectory we are sure of is that 
refugees are coming into Jordan and Lebanon at a pace that is 
unsustainable.
    Secretary Kerry. Absolutely true.
    Senator Graham. Would you reinforce to the American people, 
if this war goes on another year, and we are in this situation 
where the battlefield is basically as it is today, that Lebanon 
and Jordan are going to be in great peril?
    Secretary Kerry. Indeed, Senator. I appreciate the 
opportunity to say a word about it.
    Jordan is a critical ally to the United States. Jordan has 
been a partner with Israel, a partner with the United States, a 
significant partner in the region, for peace and for stability.
    And Jordan currently has over 900,000, close to 1 million-
plus refugees. And what is happening is, those refugees go out 
into Jordanian society, and they look for jobs. They get 
apartments. But they get 10 people in one apartment paying a 
much higher rent, and it squeezes out Jordanians.
    In jobs, they are willing to work for less. They are more 
desperate. They, therefore, affect the marketplace. They affect 
the entire political fabric of the country, and it begins to 
destabilize.
    Likewise, in Lebanon, in Lebanon, they don't have formal 
camps. You have almost 900,000 Syrian refugees scattered 
throughout Lebanon. I saw a map of it the other day from where 
it has gone in the last 3 years, with these few red dots up and 
down the coastline. Now the entire coast is red, from north to 
south, filled with refugees.
    The destabilization of that is very significant. So we have 
a national security interest in that.
    Also, the devastation on families, children, children not 
in school, the future problems for us in terms of potential 
terrorism, spread of terrorism, are very, very real. It is in 
our national security interests to try to change that.
    Senator Graham. I think that is well said, but having said 
that, the President's budget cuts aid to Jordan by $300 
million. So I would like to try to restore that. Would you help 
me?
    Secretary Kerry. Senator, we have provided significant add-
ons of aid to Jordan over the course of the last year, well 
over what was originally appropriated. And there is nobody we 
support more overall.
    But in view of some of the other things we are doing, this 
is a trade-off. We have been forced into a zero-sum game.
    Senator Graham. I got you.
    Secretary Kerry. I will help as much as I can, but in the 
end, you guys have the power on this one.
    Senator Graham. The statement you made about Jordan I think 
is very accurate.

                     RUSSIAN AGGRESSION IN UKRAINE

    On Ukraine, I don't know what Putin is going to do. I am 
not so sure he knows what he is going to do. He is probably 
making this up as it goes, and I think we have sent a lot of 
wrong signals to him and others.
    But let's look down the road and start talking about worst-
case scenarios.
    The worst-case scenario for me is that he annexes the 
Crimea, that the joke of the Duma ratifies this illegal 
referendum, and somehow they say that they are answering the 
call of the Crimean citizenry, which is a complete joke coming 
out of Hitler's playbook. And Secretary Clinton was right about 
that.
    What happens if they go east? What if they create friction 
in the eastern part of Ukraine, bring in paid-for thugs to 
create demonstrations, wanting the eastern part of Ukraine to 
be part of Russia. And the Ukrainians say enough already, we 
have a small army, but we will fight and we will die if 
necessary to protect the territorial integrity of Ukraine. And 
the Ukrainian Government asks NATO and us, not for boots on the 
ground, but for military hardware to help them fight the 
Russians, ask for weapons like other people have asked us in 
the past.
    What do you recommend we do, if that happens?
    Secretary Kerry. Well, Senator, we have contingencies. We 
are talking through various options that may or may not be 
available.
    Our hope is, however, not to create hysteria or excessive 
concern about that at this point in time. Our hope is to be 
able to avoid that. But there is no telling that we can.
    Senator Graham. See, and I----
    Secretary Kerry. Let me just finish one thought?
    Senator Graham. Yes.
    Secretary Kerry. We are watching, every day, very, very 
carefully, the movement of troops. Under the basing act, the 
basing agreement, which permits Russians to have their forces 
in Crimea, they are permitted to have up to about 25,000 troops 
under that.
    There is a requirement that they not interfere in the 
sovereignty of Ukraine from that base. And, obviously, and what 
they have done in the last days, they have done that, so they 
are in violation of the base agreement.
    We guesstimate, estimate, all of our input, somewhere in 
the vicinity of 20,000 troops there now, so they are not above 
the limit, to the best of our judgment. But we also make the 
judgment at this point that they don't have the assets in the 
places necessary to be able to, say, march in and take over all 
of Ukraine. But that could change very quickly, and we 
recognize that.
    The options, according to the Ukrainians themselves, are 
there probably would not be an all-out confrontation, 
initially, but you would have a longtime insurgency/counter 
effort that they will fight. And these are people who know how 
to fight, and they are committed to that one way or another.
    So there are a lot of different options, but I think before 
we get there, we have a number of options to make it clear to 
President Putin the level of isolation that he might be asking 
for, and the degree to which many of the people around him, if 
not he, himself, could be affected by that choice in very real 
ways before you get to any kind of troop and other kinds of 
evaluations.
    Senator Graham. Well, I hope we never get there, too.
    I don't want to take any more time. I would like to have 
another conversation with you.
    But just one final point, I really do believe that Russia 
is all in for Assad because he believes it is in their interest 
to keep Assad afloat, and they are supplying him with all the 
arms he needs, and it seems to be working.
    I just want the Ukrainian people to know that when we say 
we stand by you, that has some context.
    And I want the Russians to understand that there will be a 
point, and I don't know when that point is reached, that you 
really will pay a price. I don't think they believe that. But 
if you start marching eastward, and you start killing 
Ukrainians who are just asking to make their own determinations 
in life, apart from Russian tanks and thuggery, that that may 
be a point that you don't want to go across because the 
response may be greater than you think.
    Thank you, Mr. Chairman.
    Secretary Kerry. Senator, just 30 seconds, I would just say 
to you that I have been impressed by how united our European 
allies are on this. And we had a conference call this morning 
with foreign ministers on the phone, all the contact group, and 
to a person they are very, very committed, to a country, to 
make sure that there is accountability.
    Senator Leahy. Thank you very much.
    Thank you for what you said on Jordan. There is strong 
bipartisan support to help Jordan. Most of us have met with the 
king, many of us have traveled there. Frankly, I don't know how 
a small country like that handles the enormous burden put on 
it, but I applaud them for handling it. But I don't know how 
they deal with this enormous burden of all the refugees.
    Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman.
    Mr. Secretary, thank you so much for testifying before us, 
and most importantly, thank you for your service. As a military 
leader, a Senator, and now as a Secretary, who I think is 
making a remarkable difference in the world with multiple 
challenges.

                           KEYSTONE PIPELINE

    I have four questions this morning. The first is on energy, 
and it relates to the Keystone pipeline and the decision that 
you are going to make, and the administration is going to make, 
about a critical, in my view, piece of infrastructure that will 
transport safely the cleanest barrel of oil produced in North 
America, contrary to popular belief.
    Canada is our closest and our strongest trading partner. 
You are aware that their environmental standards are in fact 
higher than ours, and among the highest in the world.
    And this resource of 30 billion barrels of oil represents, 
I understand, the largest single free-enterprise resource in 
the world.
    So from my perspective, and particularly the people that I 
represent, it is hard for us to even understand why there is a 
question as to whether this infrastructure is in the national 
interest.
    Could you comment about the economic benefits, the aspect 
of the strengthening of a relationship that is really vital to 
our long-term interests, and what your considerations are in 
addition to those two?
    Secretary Kerry. Well, Senator, I understand it is on a lot 
of people's minds. I mean, a lot of people. The department has 
received and evaluated more than 1.9 million public comments. 
And the final supplemental EIS on this is 11 volumes, more than 
7,000 pages. My job now is to review it and make a 
determination.
    But I also have to get feedback from eight different 
agencies. I am continuing to get additional information. And if 
I have any legitimate questions, then I need to have those 
answered.
    So I am not at liberty to go into my thinking, at this 
point. It is just not appropriate, except to say to you that I 
am approaching this tabula rasa. I am going to look at all the 
arguments, both sides, all sides, whatever, evaluate them, and 
make the best judgment I can about what is in the national 
interest.
    And I will forward that to the President of the United 
States, who has ultimate authority to make this decision.
    Senator Landrieu. Thank you. And I am going to stay focused 
not only in my role as a Senator, but as chair of the Energy 
Committee on really pressing the country to understand the 
importance of becoming an energy powerhouse with cleaner energy 
sources requires the infrastructure, whether it is our 
transmission lines, our pipelines, our roads, our ports, our 
import-export.
    And it is important not only to our economy, but I do think 
it has a real bearing on our position in the world as a 
superpower. And that is what this budget reflects, basically 
our defense budget and our State Department budget sets us up 
to be a superpower. And it is very relevant.

                             AID TO ORPHANS

    The next two questions are on children. PEPFAR was put into 
place, as you know, in 2003. It has been touted as one of the 
most successful programs internationally in the world. I 
believe that it has enjoyed broad bipartisan support.
    I think you were helpful when PEPFAR was created, as I 
remember, to set aside a very small portion of the $7 billion 
annually for orphans and vulnerable children--$350 million, 
that is all--to address the fact that AIDS creates orphans. It 
creates a lot of sick people, and it results in death. But it 
also results in orphans, kids that are double orphan, both 
parents dying, or a single orphan, one parent dying but 
abandoned by the surviving parent.
    When we reauthorized PEPFAR this last year, out of respect 
for Senators Menendez and Corker, who did not want any serious 
amendments, I did not offer an amendment to make sure that $350 
million was going more directly to help children reconnect to 
families.
    Would you commit to me today, and to others, that you and 
your team will work to try to meet the original objectives of 
that $350 million to reconnect children that are orphaned by 
AIDS to families?
    Secretary Kerry. We would like to do that very, very much. 
Again, this is a reflection of just the tension in the overall 
budget.
    But we do believe that the way we have been able to do 
this, Senator Landrieu, will in fact meet our available funding 
requirements with respect to this challenge.
    We have $1.35 billion in here. This honors the President's 
commitment to do $1 from us for every $2 contributed by other 
donors to the fund, up to a possible $5 billion. And this more 
than fully funds what we are seeing will be available from the 
pledges of other countries.
    Senator Landrieu. But the problem is, when PEPFAR was 
created, there were approximately 15 million orphans in the 
world. There are now 17 million. So the rate of infection is 
going down, but the rate of orphans is going up.
    This is the only money, $350 million.
    My second question, on children, is the CHIFF bill, 
Children in Families First. There are five members of this 
subcommittee who are cosponsors--Senator Kirk, Senator Blunt, 
myself, Senator Shaheen, and Senator Coons. We are very, very 
serious about helping you to organize and put resources in your 
department that can focus on the fundamental fact that children 
belong in families, children should be in families.
    It seems to be a missing component of our foreign policy. 
There are lots of components of foreign policy. We are having a 
hard time finding anywhere where it says children belong in 
families.
    So we are going to continue to work with you--I know my 
time is up--on this bill as it moves through Senator Menendez's 
committee.
    But I do want to put into the record one of the things that 
is propelling us, Mr. Chairman, is that there have been no 
reported international adoptions from any country that has 
become a Hague partner with the United States since 2008.
    A letter has been sent to you. It has not been answered. 
Please answer it and let's continue to work together to see 
what we can do to move this issue forward.
    And I thank you.
    Secretary Kerry. Well, if I could just comment quickly, 
first of all, Senator Landrieu, you know from our meeting and 
you know from our relationship--you are the champion on this 
whole issue of children and adoption, and you have done amazing 
work at it.
    I was struck, in the meeting that we had in the Senate, 
that you and Senator Blunt and Senator Angus King and myself 
are all beneficiaries of knowing about adoption. I have a niece 
who comes from China and has just been enormously important to 
our family, so I understand this.
    I also committed to you that the State Department needs to 
do more. It needs to do better. There is no question about it. 
But I don't want to be the Secretary of State who takes the 
State Department out of the business of helping to make this 
happen. I want to be the Secretary who helps get this to be 
more effective within the department and more effective 
overall.
    In that light, we should continue to work. I understand 
that talks have come to a little bit of a standstill on this 
question of jurisdiction and where it goes.
    I am convinced, as I said to you, that we can meet your 
needs. But I also know this: Embassies are holistic and they 
deal with all of the policies within a country. And sometimes 
there are many policies that affect adoption for children, 
which requires the ambassador and the whole of an Embassy to 
impact.
    I just do not believe we will advance this cause by putting 
it wholly and totally into DHS or somewhere else, where they 
are geared to handle the visa and that component of the 
analysis, but not all of the other parts that will make this 
policy as effective as it can be.
    That is what I want to do with you. So I can hope we can 
work at that.
    Senator Landrieu. We will continue to work.
    Thank you, Mr. Chairman.
    Senator Leahy. I am not sure when votes may start on the 
floor, so we are going to try to keep close to time. And here 
is the list, we will go to Senator Coats, then Senator Shaheen, 
Senator Kirk, Senator Coons, Senator Boozman.
    So, Senator Coats.
    Senator Coats. Thank you, Mr. Chairman. And I will try to 
be brief.
    Secretary Kerry, I assume you don't get frequent flyer 
miles, but if you did, you would be set for life.

                           RUSSIAN SANCTIONS

    A question, Senator Durbin and I yesterday coauthored a 
Senate resolution relative to some sanctions, really not 
sanctions so much as providing some isolation. There are 15 
separate items on there, and it passed the Senate 100-to-
nothing.
    We know the big one is coming, and you are negotiating all 
that, the economic sanctions and so forth are part of that. But 
just two of those areas that I will list in the 15, and I 
wonder if these are being included in what you are negotiating 
right now.
    One is the participation in the G8, Russia's participation 
in that. I don't think they were invited in there, would have 
been invited in there, had we known that they were going to 
breach their responsibility in terms of invading a neighbor.
    And secondly is the relationship between NATO and the 
Russian council.
    Is there anything in your considerations, the program you 
are putting together, incorporating those two issues?
    Secretary Kerry. Actually, it doesn't require a bill to do 
those, to be honest with you, Senator. And both of those have 
been talked about publicly by me, by the President. The 
President has already made it clear, I mean the G7 countries 
have made it clear that they are not thinking about going to 
Sochi under these circumstances and having a G8 meeting. That 
is step one.
    Whether there would be further steps with respect to 
changing the structure and becoming a G7 again or not, that is 
up for grabs.
    And the NATO Russia Council has been put on hold already, 
so there are a lot of downstream impacts already to the 
bilateral relationship and to the multilateral relationship.
    Senator Coats. Good. Thank you.

                        IRANIAN NUCLEAR PROGRAM

    And let me ask you a question about Iran, while we are 
here.
    Back in 2007, Iran had about 700 centrifuges that were 
spinning uranium. Virtually the entire community of nations 
indicated that that is too dangerous of a situation to 
tolerate. The U.N. Security Council then began passing a series 
of resolutions, demanding that this effort stop completely.
    The United States, led in many ways by the Senate--you were 
a member there at the time--went through the careful and, I 
think, painstaking process of both diplomacy and tough 
sanctions, all aimed at explicitly enforcing the Iranian regime 
to end enrichment activities. And that struggle has gone on.
    Now it appears to me that in the P5-plus-1 negotiations, 
that goal has been set aside. You have a better understanding 
of where we are right now than I do, but I have not seen any 
reference, either by you or anyone else, to these Security 
Council resolutions and the demand that enrichment activities 
be completely and immediately suspended.
    Has that goal been abandoned? I guess my question is, does 
the administration still seek to force the Iranians to give up 
enrichment, or have we basically decided that that is not going 
to be part of our negotiations for an ongoing comprehensive 
agreement?
    Secretary Kerry. Senator, what date did you attach to the 
700 centrifuges? 1990?
    Senator Coats. 2007.
    Secretary Kerry. 2000-what?
    Senator Coats. 2007.
    Secretary Kerry. Yes, well, 2001, there were, I forget, it 
is in the several hundred, I think, 2002. Now there are about 
19,000. That is where we have traveled in this ``don't talk, 
don't sit down'' journey.
    Senator Coats. Which is why sanctions probably played an 
instrumental role in that effort.
    Secretary Kerry. Absolutely. And what has brought us to the 
table to begin this negotiation are a combination of sanctions, 
but also I think fairness requires that we say that, with the 
election of President Rouhani, there was an effort, a conscious 
declaration by Iran, that they were going to reach out and 
attempt to see if they could get out from under this cloud.
    So we are now testing that proposition. And in the first 
step, it is not an interim agreement, it is a first step toward 
a final comprehensive agreement, we are ratcheting them back 
from where they are. The 20 percent uranium that is enriched 
today has to go down to zero over the course of these next 6 
months, now 4 months left. And they are reducing it.
    The 3.5 percent stockpile that they have cannot grow, so 
they are basically frozen there.
    On the Iraq plutonium reactor, they are under the 
requirement not to put in any component that could contribute 
to the commissioning of that reactor--no fuel--and they have to 
give us the plans for it, which they have done.
    In addition, we have inspectors within Fordow. We didn't 
have any before the agreement. We have inspectors at Natanz. We 
didn't have them before the agreement. And we have inspectors 
on a less frequent basis in the Iraq production facility.
    We also have the right to inspect their storage facilities 
for centrifuges. We are following and tracking their milling 
and mining of uranium, so that we are tracking from cradle to 
grave. And we have begun the process of putting in place very 
intrusive verification and so forth.
    Now, at this point in time, the U.N. resolutions are 
active. And there is a goal of trying to implement that. I 
can't tell you today whether or not that is achievable.
    And so the goal hasn't changed, but we are in a negotiation 
where the real goal is to guarantee that they cannot get a 
nuclear weapon and that whatever program they might have 
peacefully going forward is one where we have absolutely 
failsafe guarantees to the best of our ability to know it 
through the negotiating process and what we achieve that we 
will know what they are doing and know it well ahead of any 
potential of their breaking out.
    As we began this negotiation, the breakout time by most 
judgments, meaning the time to get sufficient uranium enriched 
for one nuclear weapon, was about 2 months. It is longer now, 
because of the first step that we have taken.
    And I can guarantee you that in order to have a final 
agreement that will be comprehensive enough to meet our 
standards, the standards of our gulf friends, of Israel, of 
others, it is going to have to grow significantly beyond where 
it is today.
    So we believe we are heading in the right direction. I 
can't tell you where it is going to finally land. We don't 
know. There are some very tough decisions the Iranians are 
going to have to make--very tough--in order to meet the 
international community's standard for certainty as to the 
peacefulness of this program.
    Senator Leahy. Thank you.
    Senator Coats. Mr. Chairman, I will not ask another 
question, if I could just respond there.
    Despite the efforts that we are making, the Iranians have 
declared publicly a negotiation victory over the fact that 
cessation of enrichment, which has been in a series of U.N.-
supported resolutions, Security Council-supported resolutions, 
that has been the determination and statements of four 
presidents, two Democrats and two Republicans, that that goal 
has been abandoned, and Iran has achieved in moving the ball 
toward a different kind of goal, which we hope will be 
successful. But the fact of the matter is that no longer is the 
goal.
    Keeping Iran from producing a nuclear weapon is far 
different than having the capability of doing that. It sounds a 
lot to me like what we went through with North----
    Secretary Kerry. Senator, if I could just say to you, 
remember the U.N. resolution wasn't that they couldn't have any 
enrichment at some point in time. It is what they had to 
suspend. And the reason for the suspension requirement was 
because we didn't know what was happening at Fordow. There 
weren't any restraints. There was no inspection. There was no 
certainty as to where they were going.
    So it is an open question, but nothing has been decided. 
The initial agreement, the JPOA, as it is referred to, 
specifically states nothing is agreed until everything is 
agreed. And I can guarantee you there has been no giveaway on 
that final issue at that this point in time.
    But we are talking about how do you get sufficient 
verification, intrusive inspection, capacity to know what is 
happening, so that no matter what is going on, we are protected 
and our friends in the region are protected.
    Senator Leahy. I think the most important thing is we 
continue the negotiations, and I do not think the Congress, 
whether responding to various lobbies or not, is a place to 
conduct a negotiation. Let's let the negotiators try to work it 
out.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Mr. Secretary, thank you very much for your tireless 
efforts to address so many of the crises we are facing in the 
world today. You make us very proud here.
    First, I don't have any questions on Ukraine, because there 
have been a number of those. But I do want to point out that I 
hope that the work of the Foreign Relations Committee yesterday 
to come to a bipartisan agreement on a bill to address Ukraine 
that includes both sanctions on Russia and support for the new 
government in Ukraine will be helpful as we are trying to 
address the crisis there.
    I think it is very important that we do work together here 
in Congress to support your efforts. And I think that is 
exactly what the committee did.

                        SYRIAN CHEMICAL WEAPONS

    I want to start with Syria. I have two questions about 
Syria. As you point out in your testimony, it is one of the 
greatest tragedies we are facing in the world today. It is just 
horrific what has happened to the people of Syria, the 
destruction of their country. And part of that has been the 
chemical weapons that Assad has had. And there was an agreement 
that you helped broker to have Assad commit to eliminate their 
chemical weapons stockpile.
    He has now missed several deadlines for commitments that he 
had made. It seems like it is not realistic to think that they 
are going to meet their end of April deadline. Can you say what 
more we can do to pressure Assad to make sure that they reduce 
these chemical weapons? And then can you also address 
humanitarian efforts there, and what more we can do to support 
and to get the Russians to engage with Assad to make sure that 
humanitarian efforts get to the people who need them?
    Secretary Kerry. Well, thank you very much, Senator 
Shaheen. Thank you for your generous comments at the beginning.
    And I do thank you, all of you. Those of you who serve on 
the Foreign Relations Committee, I thank the Foreign Relations 
Committee for its initiative, which is helpful.
    Syria is deeply troubling for all of the reasons that 
everybody on the committee understands. And it is also 
troubling for other reasons, not that you don't understand 
them, but they are not written about publicly that much.
    The opposition has been sidetracked, to some degree, 
focusing on extremists. So you have had a fight between the 
Islamic state in Iraq and the Levant, ISIL, as it is called, 
and some of the other groups. And that has detracted from their 
focus on the Assad regime, and Assad has played that.
    In addition, you have had a certain lack of, I guess the 
way to say it is coordination between some of the support 
countries, and there are a lot of reasons for that, so that 
there hasn't been as powerful of an effort as there might have 
been.
    Now that is changing a little bit. There have been some 
personnel changes within the framework of that support 
structure. And I think that there is a lot more coordinated and 
effective effort with respect to Syria beginning to take shape.
    In addition to that, the huge infusion of Hezbollah and 
Iran changed the game somewhat on the ground while the other 
people were sidetracked, focusing on the extremists. So that is 
part of what has shifted somewhat temporarily for Assad.
    But I say temporarily because I don't believe that the 
support countries, Saudi Arabia, the Emirates, Qatar, et 
cetera, are going to ever stop until Assad is gone. So he may 
have a breather in the interim, but this fight is going to go 
on.
    And therefore, what Senator Graham was saying earlier is 
the biggest guarantee is that a whole bunch people are going to 
suffer.
    We were working effectively with Russia up until recently, 
obviously, with respect to this, and it is a question mark 
where that is going to go.
    Now Russia was extremely helpful with respect to the 
chemical weapons effort, because of their influence on the 
regime and their ties to it. And we were also helpful because 
the President made it clear that if there wasn't some 
alternative, he was going to strike. And neither the Russians 
nor Assad wanted that to happen.
    So the President's decision, coupled with the cooperation 
that ensued thereafter, got this regime in place to remove the 
chemical weapons.
    I would say about 30 percent of the chemical weapons, a 
third of them are now removed and under control. We have the 
locations where the rest of them are now contained in 12 
different locations. We have to move them from there to the 
port in Latakia.
    And we believe that that can be done in about 35 to 40 
days. We have put that proposal before the OPCW and before the 
Russians. The Russians were helpful in reducing the amount of 
time the Assad regime was proposing to use, which was 100 days, 
down to 62. We are now on a 62-day schedule.
    We believe that can be reduced by another 20 to 25 days, 
and we would like to see that done. Whether or not we can 
succeed in getting that done will depend to some degree on the 
outcome of events that we are obviously all focused on with 
respect to Ukraine, and so forth.
    My hope is it will not interfere, that what happens in 
Ukraine will not interfere. I think Russia maintains a 
significant interest in not having these chemical weapons 
loose, not having them fall into the hands of terrorists, 
particularly since they are proximate neighbor. And therefore, 
my hope is we will continue no matter what.
    But we are focused on getting them out.
    Now the end deadline for this is June, not April. So, in 
fact, we are operating within the timeframe still. I still 
believe it is possible to achieve this. And we are going to 
stay focused on it.
    Senator Shaheen. Thank you very much.

                            TRADE WITH IRAN

    Mr. Secretary, I am almost out of time, but I wanted to 
raise the issue of Iran, because one of the things that is 
giving me pause, and I am sure others as well, is the increase 
in exports of their oil and the interest that has been 
professed and the delegations from a number of countries to 
Iran in this period that makes it appear that sanctions are 
going to be lifted in a way that I think is not helpful to the 
ultimate outcome of any agreement.
    So can you speak to what we are doing to discourage some of 
our European partners from sending trade delegations to Iran 
and how we keep the pressure on in this interim period?
    Secretary Kerry. Absolutely.
    Senator Leahy. And if we could have that briefly, because I 
now have been alerted that we are going to have votes, and we 
are going to have to cut this off when the votes start, and I 
don't want to cut off while there are others.
    Secretary Kerry. I will move as fast as I can.
    Let me tell you that I have been personally in touch with 
foreign ministers of countries where we have heard there might 
be a trade delegation. We have made it crystal clear that Iran 
is not open for business. They have accepted that. They are not 
cutting deals. There are people who have traveled, but there 
have not been new deals. And where there have been, we have 
told people that if they transgress any component of the 
sanctions regime, their businesses will be sanctioned. They 
accept that.
    Now the fact is that Iran needs between $60 billion to $70 
billion a year to finance its imports. In the entire first step 
agreement here, there are maybe $6 billion to $7 billion that 
will be released through the increase in the oil export, and 
that is legit under the process that we created.
    But no sanction has been lifted. Nothing in the 
architecture of the sanctions regime has been changed 
whatsoever.
    Iran's economy contracted by 6 percent last year. It is 
expected to contract again this year. Inflation remains at 
almost 40 percent. And we are just a very, very clear that 2 
months into this, very little additional economic impact has 
flowed to Iran for a number of reasons--because banks are 
uncertain how to deal with it, there is a lot of uncertainty 
about where this is going to go, our strict enforcement of the 
sanctions has in fact acted as a deterrent to many people 
deciding to get engaged.
    And we have sent very strong messages through Treasury and 
the State Department that there will be consequences to anybody 
who tries to circumvent them.
    And one last thing, we have sanctioned additional people.
    Senator Leahy. Some Senators are not going to get a chance 
to ask questions if we don't keep ongoing.
    We are going to go Senator Kirk, Senator Coons, Senator 
Bozeman, Senator Blunt.
    Senator Kirk.

                     IRANIAN FUNDING FOR HEZBOLLAH

    Senator Kirk. Thank you. I will, Mr. Secretary, bring to 
your attention a chart that we have done on the cash flow into 
Iran.
    We estimate that Iran had about $20 billion ready liquid 
assets before the P5+1, and now has about $25 billion and that 
is the additional oil revenues that you talked about, and money 
released by the United States back to Iran, which equals about 
50 years of Hezbollah payments--that Iran now has. With an 
improving cash flow position, I would expect that we would see 
even more terrorism with this additional money available to the 
Islamic Republic of Iran.
    Secretary Kerry. Well, Senator, with all due respect, the 
fact is that Iran has huge economic problems. And I am 
guaranteeing you that whatever additional flow of money there 
was going to them is not all flowing--I can't tell you the 
amount--to Hezbollah because they have enormous challenges at 
home and demand on that money.
    There is no way Iran is better off when we are taking 
somewhere between $15 billion and $30 billion and putting it 
into a frozen asset fund. That is what is happening right now.
    And so they are losing. They are losing enormous sums of 
money, more than $100 billion that is now frozen, and growing 
in its amount, because the amount that our sanctions are 
depriving them of.
    As I have said, the release of this money--in fact, I don't 
even agree with that figure. There is no way that the release 
of the funds under the agreement has resulted in that, and I 
will tell you why, because the funds are only released on an 
incremental basis, month-to-month. And we are only 2 months in.
    And so there is no way they have received. I don't know 
what the total amount has, I mean, it may be $1 billion or so.
    Senator Kirk. Let me interrupt you to say that I believe 
the first payment to the Iranian delegation from the P5+1, it 
is paid for and rented by a $400 million regular payment.
    Of course, I know why the foreign minister is there, of 
course I know why he is there, because he is being paid to be 
there.
    I had a long discussion along with Congressman Israel with 
the Iranian foreign minister, who is a long and eloquent 
Holocaust denier. Has he raised that subject with you?
    Secretary Kerry. No, but I raised it with him on one 
occasion. But we are focused on the nuclear negotiation right 
now, Senator.
    Senator Kirk. I would just follow up and say it is about 
$1.55 billion released under the interim agreement to Iran that 
we estimate.
    At $100 million a year payments by Iran to Hezbollah, that 
is a lot of Hezbollah terrorism.
    Secretary Kerry. Well, if it is going to them, if they have 
money to give to Hezbollah, Senator--I mean, Senator, Hezbollah 
is fighting in Syria. They are paying for that. They are 
supporting it. No question about it.
    But, you know----
    Senator Kirk. Mr. Secretary, I am going to forward to you a 
list of 280 Americans who have been murdered by Hezbollah. This 
is broken down by State, including those from Illinois, Melvin 
Holmes and David Gay and John Phillips Jr., who I knew, who 
attended in my church in Wilmette, and Adam Sommerhof, and Eric 
Sturghill and Eric Walker and Eric Pulliam, were all from 
Illinois.
    Secretary Kerry. Well, Senator, look, I am glad that we 
have designated Hezbollah a terrorist organization, and we have 
led the effort to make sure that Europe has followed now and 
labeled them a terrorist organization.
    And if I had my druthers, obviously, we would like to see 
them disappear. But we are working at dealing with Hezbollah 
and other terrorist organizations in many different ways.
    But I do believe that we are on the right track with 
respect to this first step agreement with Iran, because the 
alternatives are not as productive as the possibility of being 
able to reach an agreement through the negotiating process.
    Senator Kirk. Thank you, Mr. Chairman.
    Senator Leahy. Thank you.
    Senator Coons.
    Senator Coons. Thank you, Chairman Leahy, Ranking Member 
Graham.
    And, Mr. Secretary, thank you so much for your tireless 
engagement and focus on the challenges that we face around the 
world, but particularly at this time of real difficulty in the 
Middle East, in Crimea, and elsewhere around the world.
    I will just simply add my voice to others on this committee 
who have urged increased support for Jordan, increased focus on 
ensuring that we do in fact deliver on the opportunity here to 
remove CBW from Syria; commend you for your tireless focus on 
trying to resolve one of the longest standing challenges we 
face in the world, the tensions between Israel and the 
Palestinian Authority; and urge you to continue to consult 
closely with Congress as you continue to make good on the 
prospect of peace around Iran's illicit nuclear weapons 
program.
    I stand with many of my colleagues in ensuring that we 
provide you the resources you need in order to carry forward on 
any agreement delivered, and that that ultimate agreement 
prevent any pathway, whether through uranium or plutonium, to a 
nuclear weapons capability for Iran.
    I also was pleased in your opening statement that you 
emphasized the importance of economic engagement with Africa 
and the prospects it holds for our country for job creation as 
well as sustaining our vital investments in PEPFAR, in MCC, and 
in other programs.
    Given the impending votes and the number of other Senators 
waiting, let me just mention a few topics across Africa. And 
then to the extent we have time for your response, I would 
welcome it.

                           AFRICA INITIATIVES

    First, I look forward to working with you and the chairman 
and others on this committee to ensure that there are the 
resources needed to support work on fighting wildlife 
trafficking. I want to commend you for taking a leadership role 
in co-chairing the Presidential Task Force on Wildlife 
Trafficking. And I want to make sure there are resources to 
support that national strategy.
    Second, as you referenced in your opening statement, there 
is a renewed wave of violence in Sudan, as well as in South 
Sudan, and I want to make sure that we have the resources to 
provide humanitarian support. There has been renewed aerial 
bombing in the Nuba Mountains and the Blue Nile, and a renewal 
of violence by the Janjaweed elements within Sudan.
    There are a range of challenges in Sudan and South Sudan, 
and you have been tireless in working hard to help give birth 
to a newly free country of South Sudan. I would hate to see us 
miss this opportunity when there are so many other things going 
on around the world.
    The two things I wanted to focus on most of this list, 
Power Africa, a tremendous initiative, one that I think really 
does hold out great promise for the continent of Africa and for 
the United States. Yet there is no specific request for this 
initiative, and I am concerned that AID is funding it out of 
existing accounts. With a significant number of difficult 
elections on the continent in the year ahead, I hope that we 
are not underfunding democracy and governance efforts by state 
and AID.
    And if there is a way we can work together to sustain Power 
Africa beyond the next 3 years, to lay out a framework for its 
funding and for its continuance, I think that could make a 
dramatic difference in meeting development and humanitarian and 
strategic needs, and in creating real opportunity for American 
business in partnership with our allies on the continent.
    Last, the Central African Republic continues to be deeply 
concerning. Twenty years after the Rwandan genocide, there are 
steadily escalating incidents of violence and a division within 
the country seemingly along ethnic and religious lines.
    Given the shortfall we face in our peacekeeping accounts, I 
would be interested in hearing your views on how we can meet 
our obligations. I think it affects our reputation in the U.N. 
and globally when we support a peacekeeping mission, but then 
don't meet our commitments.
    I was glad to support the work of our chair in SFRC in 
ensuring that we made our obligations around the IMF. Other 
members have spoken to that previously in this hearing. I would 
just love to hear from you what we can do to make sure that we 
make good on our commitment across all of these fields, the 
potential of Power Africa and peacekeeping, in particular.
    Thank you, Mr. Secretary.
    Secretary Kerry. Well, thanks. Because of the time thing, 
first of all, let me just say I want to thank you, Senator, for 
your unbelievable leadership. You are terrific in your 
dedication and tenacity with respect to all issues in Africa. 
The Foreign Relations Committee always had a terrific tradition 
of having someone who picked up that banner, and you have done 
it brilliantly, and I thank you for that.
    Secondly, on the issues that you raised, we really ought to 
have a longer conversation, and I am prepared to do that.
    Power Africa, we believe, is adequately funded. The 
President has designated the goal of trying to get about 10,000 
MW of power. We have identified 5,000, and we have identified 
funding and projects, 20-some projects, that will provide that. 
So we are proceeding forward.
    We are doing pretty well at it with existing U.S. 
Government resources and working the process. But I am game to 
think about how, if we can augment that, to get there faster, I 
am happy to do it.
    Senator Coons. And to be clear, my goal is not to simply 
expend U.S. Government resources. In fact, my general goal is 
to reduce our overall expenditures by making them smarter. I 
just think there are opportunities here to leverage private 
sector partnership with the public sector, over the long term.
    Secretary Kerry. Fair enough. We are currently designated 
to $7 billion out of OPEC and Ex-Im Bank in order to try to 
achieve this. And private sector commitments total $14 billion, 
which is not insignificant.
    So I think we are on track, but let's work at it and see 
how we can leverage it further.
    On the peacekeeping, some of the missions have reached a 
point where we can begin to close some of them, East Timor, we 
are looking at reduced assessments for Liberia, Haiti. But then 
we have new ones that have come on, as you know.
    We have increased by $342 million our commitments for Mali, 
Somalia, South Sudan. We put additional money beyond that into 
South Sudan, by the way, on a humanitarian basis.
    And my sense is that we have another problem, that we pay 
at I think it is 27-point-some percent, but we are being 
assessed by the U.N. at 28.4 percent, so we are behind in that 
regard, and we are going to have to think about long-term how 
we are going to meet that arrearage and deal with it.
    Senator Coons. I am eager to work with you on that. Seeing 
the press of time, thank you very much. I understand you have 
more pressing obligations. I look forward to a chance to talk 
through these issues when the current situation is resolved to 
some extent.
    Thank you, Mr. Secretary.
    Secretary Kerry. Thank you.
    Senator Leahy. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.

                                 PEPFAR

    And thank you, Mr. Secretary, for being here with us. I 
just want you to comment on a couple things very quickly. We 
have all of these pressing problems going on throughout the 
world right now, but I would like for us not to lose sight of a 
couple programs I think they are working very, very well.
    PEPFAR, in fact, I think you called this the most 
successful foreign assistance program ever. I know that you 
have been very, very supportive, President Bush, now President 
Obama, lots of different individuals on both sides of the 
aisle.
    Can you just comment on it real quickly and reassure us 
about PEPFAR's sustainability into the future?
    Secretary Kerry. The answer is, we believe we have funded 
it. The global fund is slightly reduced, but actually we have 
plussed that up.
    There is no question in my mind--I am proud to say that 
that effort really began in the Foreign Relations Committee and 
with Bill Frist, when he was here. And we had support from 
Jesse Helms. We passed it unanimously in the Senate. It was the 
first AIDS legislation for global efforts. And that led to 
PEPFAR.
    President Bush made a tremendous commitment to it. I think 
the original $15 billion and then it got doubled, and President 
Obama has continued it.
    We are looking at the potential now of a first-time-ever 
AIDS-free generation of kids, as a result of where we are. We 
believe the funding is at a level, notwithstanding a slight 
reduction, where we are going to be able to not just continue 
it, but take it to fruition in its targeted goal. So I think we 
feel very confident about it.
    Senator Boozman. Good. The 10-year anniversary, 1 million 
children born AIDS-free. I think that is something we can be 
very, very proud of.
    The Millennium Challenge Corporation, the MCC, again, along 
the same vein, I think it was ranked first among international 
donor organizations by an NGO that tracks transparency. Based 
on this success, can you again talk a little bit about how we 
can replicate this model, perhaps, and increase public 
accountability and transparency with some of our other 
assistance programs?
    Secretary Kerry. Absolutely, Senator.
    MCC, which I am privileged to chair the board of as 
Secretary and have had several meetings, is doing a tremendous 
job of providing a different model for how you approach 
development funding.
    The President increased the funding by 11 percent. It is up 
$101 million to just about $1 billion. I think the total amount 
of our development money is some $20-point-some billion, so we 
are looking at 1/20 of our development money done in this new 
metric-oriented, measurements, results-oriented determinative 
process.
    And it works effectively in certain situations. I am not 
saying it can translate into everything that we do in terms of 
development. But we have some new, since 2004, we have signed 
some 27 compacts. A compact we sign with a country is a certain 
approach, a certain set of expectations for what they have to 
do--reforms in government process. It is a tremendous lever for 
good governance, for transparency, for accountability. And we 
are very high on it and are trying to figure out how much more 
we can extend it as a significant new model tool for 
development on a global basis.

                        CENTRAL AFRICAN REPUBLIC

    Senator Boozman. And finally, CAR. This is an area that 
again, with all that is going on in the world, it has had 
tremendous problems. We have had to pull out our diplomatic 
community. Can you briefly touch on it and kind of give us your 
perspective? I know Samantha Power has been working hard in 
that regard in her abilities. Perhaps a plan of returning our 
diplomatic presence, where you see that going?
    Secretary Kerry. Well, we are working very closely with the 
French, I think you know. And we are providing an additional 
$100 million to assist the African Union-led International 
Support Mission, MISCA. We are providing strategic airlift. We 
are providing equipment and training for the forces that are 
deploying there.
    In the last 2 months, we have airlifted some 850 Burundian 
troops in, 860-plus Rwandan troops, so the total number is 
somewhere around 6,000 troops now.
    What has been missing is accountability. You have this 
incredible problem of young people running around with guns, 
tribal warfare, and so forth, and there is no enforcer, which 
is why we have pressed in the African Union, we pressed the 
international community, to try to support it. It is not just 
there. It was with M23 and the Great Lakes region and 
elsewhere. Thugs with guns who are running loose, and there is 
no countervailing government capacity.
    So what we are trying to do is to build the capacity. And 
we are grateful to the French. They have been terrific leaders 
in this effort, very committed, historically and otherwise. And 
we are doing our part to try to provide order through a 
government force that is present that holds people accountable 
for their actions and begins to lead people toward a 
development agenda, toward a governance agenda that is the only 
way ultimately to provide the stability necessary.
    This is an area where there are huge resources at stake, 
and that is the part of the battle.
    Unbelievably resource-rich, unexploited through a 
legitimate market of any kind, and that creates a lot of this 
chase for riches, which is at the butt of a gun.
    So we are trying to come in with some development capacity, 
governance, leadership capacity, and creating the kind of force 
that could help to provide stability, so those other things can 
take hold.
    Senator Boozman. Thank you, Mr. Secretary.
    Senator Leahy. Senator Blunt.
    Senator Blunt. Thank you, Chairman. Thanks to you and 
Senator Graham for holding this hearing and all you are doing 
to try to focus on the positive impact of aid and what it can 
mean in creating the kind of relationships we need.
    To try to cover a couple topics quickly that I think may 
not have been talked about yet, which is pretty hard to do at 
the end of this hearing, Secretary.
    And thank you for your time and your tireless efforts in 
this great responsibility you have accepted in this job.

                              CAMP LIBERTY

    Could you comment a little bit on what plans we might have 
for the disposition of the 3,000, roughly 3,000, Iranian 
dissidents at Camp Liberty in Iraq, and whether our allies, 
others in the world, are willing to take some of these people? 
And whether we are? Can you give me a sense?
    Secretary Kerry. Yes, I have appointed a special adviser, 
special envoy, a very qualified lawyer, who is really tackling 
this on a day-to-day basis with exceptional energy and focus.
    We have been able to place, I think it is around 300 or so. 
The Albanians have graciously agreed to accept some.
    Our goal is to get all 3,000 out of there, Camp Hurriya. We 
really want to get them out of there. We know that they are at 
risk. We know there are dangers. And we are trying to find the 
countries that are willing to do this. It is a tough 
negotiation.
    Frankly, it would be greatly assisted by our ability to 
make a determination about how many we are going to take, and 
that is where our focus is right now. We are making an analysis 
of that and some judgments. The sooner we can get that 
concluded and moving, I think the better opportunity we are 
going to have to get people relocated elsewhere.
    We had some problems, incidentally, in the beginning when I 
first came in, I learned that there were some problems 
internally in the camp, in the administrative process and the 
willingness of people to submit to interviews. And I think that 
has been resolved, but we have had a lot of difficulties in 
being able to really get the population properly vetted and 
defined, so we know who might be able to go where and what 
appropriate accommodations could be made.
    Senator Blunt. It is my view that time is not our friend 
there.
    Secretary Kerry. I agree completely.
    Senator Blunt. Nor for the people at the camp. And you 
agree with that?
    Secretary Kerry. I totally agree with that.
    Senator Blunt. Whatever I can do to be helpful and whatever 
I can do to encourage your efforts to find places for these 
people to go while they still can hopefully get there would be 
important.
    Secretary Kerry. Absolutely.

                      TURKEY AND SYRIAN RELATIONS

    Senator Blunt. Today in Turkey, there are tens of thousands 
of protesters protesting about the funeral of a 15-year-old boy 
who died after being hit by a canister, a tear gas canister, 
several months ago. It seems to me that Erdogan is not as 
helpful as he could be in a lot of areas, but one is that large 
Syrian border. What is our relationship there now? Are we able 
to try to encourage more help in solving the Syrian situation 
from Turkey?
    Secretary Kerry. The answer is we would like to get 
additional help. The Turks have been very forthcoming. We have 
been working with them very closely.
    We would like to see greater cooperation from them on the 
border pieces. There are too many people moving through, 
particularly in the eastern part and coming down to the 
northern part of Syria in the northeastern part.
    We have spoken to them about that. We have an ongoing, very 
healthy dialogue with people on the ground, working with them 
very closely. Their foreign minister is deeply engaged. He has 
been very, very forthcoming, very helpful to us.
    There is an election, as you know. There is a lot of 
political dynamic at play in Turkey right now, and it is 
difficult in the middle of that to get all the focus that you 
might like to have on this kind of an issue and to resolve some 
of it.
    But we are working also with Turkey, I might add, on the 
rapprochement with Israel, resolution of the blockade on Gaza 
issue that ran into problems with the Amorey Mulveek a few 
years ago.
    And I think it is fair to say that, at this moment, they 
are pretty inward looking in terms of the electoral process.
    Senator Blunt. And that is the end of this month, as I 
recall?
    Secretary Kerry. I beg your pardon?
    Senator Blunt. That is end of this month? March 30, is it?
    Secretary Kerry. It is April, isn't it?
    Senator Blunt. It is April? But soon?
    Secretary Kerry. Yes, soon.
    Senator Blunt. On a topic that I am sure has already been 
discussed, but on the view of whether Iran, and I am not 
suggesting this is your position, but whether Iran should ever 
be allowed to have the component parts that they could put 
together to make a weapon, whether they have a weapon or not, I 
would want to be strongly listed on the side they should not be 
allowed to have that.

                          NUCLEAR DEVELOPMENT

    And I would like you take comment on a couple things. One, 
if they did have the capacity to enrich, is it your view that 
we can monitor that in a way that would be satisfactory? And 
two, how do you keep that capacity to enrich from proliferating 
to other countries that we have been holding back, that have 
nuclear power, but we haven't let them have this capacity 
because of the danger that up until now most powers have 
understood was a danger if you let the proliferation of 
enrichment occur?
    So those are really my last two questions.
    Secretary Kerry. Well, most countries that have chosen to 
pursue some kind of nuclear power capacity have not chosen 
necessarily to enrich for themselves. Some have, so there is a 
precedent. It is not the majority, obviously.
    There are different reasons for one country or another 
having an argument that they might want to enrich, to some 
degree.
    My current judgment, you say, can we monitor? At this 
point, not completely, no. And that is why we are negotiating. 
It is to make sure that we can completely, ultimately.
    And how do you prevent the enrichment from leading 
elsewhere? I think that the constraints under which a country 
would have to operate if they are going to have some enrichment 
are really significant. I mean, we are talking about a need to 
know beyond reasonable doubt, not guess, but to know, what is 
happening on any given day, in any given facility.
    So this is all subject to the negotiation. This is not 
currently decided.
    And you asked me, I think, if we could consider at this 
moment in time that we have the ability to be able to know, or 
something? And the answer is that is actually what the subject 
of this negotiation is now.
    Senator Blunt. And you think that negotiation could 
produce----
    Secretary Kerry. Well, we hope it could. I don't know if it 
can yet, Senator. Honestly, I don't know.
    I know what we want to ask for. I don't know if we can get 
a yes to it.
    But you raised the question of warheads, et cetera. It is 
very much a subject of the negotiation. It has to be.
    And any of that technology has got to be part of this. Now 
that is distinct from missile, conceivably. It is a harder 
argument to make on some range of conventional weaponry that 
that falls under this.
    But certainly, R&D and warhead development or anything like 
that would very much fall squarely into the concerns that we 
would want to be talking about in negotiation.
    Senator Leahy. We have 6 minutes left on the roll call on 
the floor.
    Senator Blunt. Thank you, Mr. Chairman.
    Senator Leahy. So I am not going to ask my further 
questions, other than to note, and we should talk about this 
later Secretary Kerry, we were lobbied, Congress was, to say 
that the Palestinians, prior to the UNESCO, we would show how 
tough we were in our support of Israel by withdrawing payments 
to UNESCO. What that meant, of course, we lost our vote in 
UNESCO, so we are not able to protect America's interests, or 
Israel's interests, there. All we do is watch the Russians, the 
Iranians, the Syrians, the Chinese, the Palestinians have the 
vote.
    So I hope you work with the Congress. I would like to see 
us get a waiver so we can get back in there and actually do 
what is best in America's interests.
    And we need to address the Avena court decisions on the 
rights of consular access for foreigners arrested in this 
country. The Departments of Defense, Homeland Security, State, 
and Justice all support doing something on this. Chief Justice 
Roberts has. It is overdue. We should do something on it.
    Senator Graham.
    Senator Graham. Thank you. I know you have a meeting. A 
little bit of homework here.
    Could you inform the committee in writing, there is a 
debate in Congress whether we should sell Apaches to the 
Egyptian regime. I think, Mr. Secretary, that the Egyptian army 
has not met the goals that we all would hope. They are not 
transitioning to democracy in a meaningful way, in my view.
    Could you inform the committee, in your view, what kind of 
role should the Congress play regarding aid to Egypt, 
particularly military aid? I don't want to send the wrong 
signal and undercut efforts to get the transition to democracy.
    Do you agree with the statement by the DNI that the Al 
Qaeda presence in Syria is building up and is becoming a threat 
to the homeland?
    Secretary Kerry. Yes.
    Senator Graham. Okay.
    When it comes to Israel, it has been our position that the 
Palestinians should recognize the Jewish state as part of their 
negotiating position, is that correct?
    Secretary Kerry. Yes.
    Senator Graham. Secondly, you can do this in writing, if 
you like, do you think President Abbas has the ability to speak 
effectively for Hamas regarding any potential peace agreement?
    Secretary Kerry. Part of our discussion at this point in 
time, Senator, is a requirement before some kind of agreement 
were to come into effect that that issue would have to be 
resolved.
    Senator Graham. Thank you.
    Secretary Kerry. Thank you very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Leahy. Mr. Secretary, thank you very much.
    I thank the members for their clear questions. We will keep 
the record open until Wednesday for any further questions, and 
I would urge you to answer them.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                  Questions Submitted to John F. Kerry
            Questions Submitted by Senator Richard J. Durbin
    Question. The United States recently decreased its pledge to the 
World Bank's International Development Association--the Bank's fund for 
helping the world's poorest countries. This drop hurts American 
leverage in at the Bank, creating more openings for China and others 
who may not share our priorities. Please elaborate on the U.S. 
commitment to the International Development Association and the 
international financial institutions as a whole.
    Answer. The United States recently pledged $3.87 billion to the 
International Development Association (IDA)--which represented a 5 
percent decrease from its previous pledge. While the administration 
would have liked to have pledged more, the $3.87 billion reflects the 
very difficult budget environment that we face. The U.S. pledge was 
still enough to make the United States the second largest contributor 
to the fund's record-breaking replenishment cycle, which yielded over 
$52 billion in pledges.
    IDA, the Asian Development Fund, and the African Development Fund--
the concessional windows at the World Bank, Asian Development Bank, and 
African Development Bank, respectively--provide grants to the world's 
poorest countries and support key U.S. development priorities. The 
United States remains one of the largest contributors to these funds, 
and our financial contributions send an important signal about the U.S. 
commitment to alleviating poverty and fostering economic growth and 
stability to other donors and developing countries.
    Question. Countries such as China, India, Turkey, and others have 
been gaining an economic foothold in Africa, too often at American 
expense. With 7 out of 10 of the fastest growing economics in the world 
being in Africa, the U.S. has a great opportunity to invest while 
supporting domestic jobs. I was pleased that part of my legislative 
efforts to address this issue became law in December and that the 
administration must designate a senior coordinator to boost U.S. 
exports to Africa. Can you comment on this larger challenge in Africa 
and administration efforts to help address it?
    Answer. The Department of State shares your view that Africa 
represents a great opportunity for U.S. companies to generate economic 
growth both in Africa and domestically.
    Commercial activities of other countries in Africa have generally 
not hindered investment opportunities for our firms.
    The U.S. Government's (USG's) Doing Business in Africa (DBIA) 
Campaign encourages U.S. businesses to take advantage of the many 
export and investment opportunities in Sub-Saharan Africa. The USG is 
encouraging U.S. companies--with a focus on small- and medium-sized 
businesses and African Diaspora-owned businesses--to trade with and 
invest in Africa. To support this initiative and in coordination with 
the Department of Commerce's Advocacy Center, our Embassies and 
Consulates provide robust commercial advocacy support of U.S. firms 
competing in Sub-Saharan Africa and facilitate numerous high value 
trade and investment missions and deals in key sectors, such as 
healthcare, agribusiness, and infrastructure and energy. The 
Presidential initiatives of Power Africa and Trade Africa harness the 
efforts of many U.S. Government agencies and the private sector to 
increase trade and investment in Sub-Saharan Africa.
    The Overseas Private Investment Corporation (OPIC), Export-Import 
Bank (Ex-Im Bank), and the U.S. Trade and Development Agency (USTDA) 
are building upon current assistance to U.S. business. For example, the 
U.S.-Africa Clean Energy Development and Finance Center opened its 
doors in 2013 at the U.S. Consulate General in Johannesburg, South 
Africa, to provide the U.S. private sector, as well as our Sub-Saharan 
African partners, with a centralized means to identify and access U.S. 
Government support for clean energy export and investment needs.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
    Question. As you know, last fall Senator Blunt, Congresswoman 
Granger, Congresswoman Bass, and I introduced the ``Children in 
Families First'' Act and have since gained the support of nearly 60 
Members of Congress for this legislation. At the core of this bill is a 
proposal for making necessary structural changes to the State 
Department's current approach to international child welfare. More 
specifically, we have proposed to unite issues related to international 
child welfare, including international adoption, in a single office to 
be housed in the State Department's Secretariat for Civilian Security, 
Democracy, and Human Rights. We believe such changes are necessary at 
the Department of State to ensure that, both internally and externally, 
international child welfare is treated as more than an immigration 
enforcement issue, which its current placement in the Bureau of 
Consular Affairs suggests that it is. We have seen the same approach of 
centralizing and empowering an office or bureau work to great effect in 
fighting terrorism, combatting trafficking, providing humanitarian 
assistance and resettlement to refugees, and providing AIDS relief and 
seek now to emulate that success on behalf of vulnerable children. It 
is my understanding that the U.S. Department of State opposes this 
effort and seeks to keep these functions in the Bureau of Consular 
Affairs, which handles border security and overseas citizen services, 
and has no real mandate or resources to engage in international child 
welfare issues writ large, and which, in our view, has a less than 
ideal track record even in its narrow mandate of implementing the Hague 
adoption and abduction conventions.
  --Can you affirm that this is in fact the State Department's position 
        and help clarify for the members of this subcommittee why that 
        is so?
  --Do you agree that international child welfare requires a dedicated 
        Bureau or Office in the Department of State?
  --Do you agree that international child welfare is more than a 
        consular issue and as such needs to be handled elsewhere in the 
        Department than the Bureau of Consular Affairs?
  --In the same way that refugee resettlement is part of the Bureau of 
        Population Refugees and Migration precisely because it is a 
        tool of refugee protection, do you agree that international 
        adoption is a tool of protection for children living without 
        families, not simply an immigration enforcement issue?
    Answer. The U.S. Department of State helps to serve and protect 
children around the world. Our global presence ensures that we are able 
to support children, youth, and their families through programmatic 
support and diplomatic engagement, under the leadership of the Chiefs 
of Mission of each U.S. Embassy and supported through the expertise of 
the Department's various offices and bureaus engaged on children's 
issues. Such policies, programs, and diplomatic efforts help strengthen 
families and protect children. Additionally, they help to support the 
U.S. Action Plan on Children in Adversity (APCA), which aims to promote 
a world in which children grow up within protective family care and 
free from deprivation, exploitation, violence, and danger.
    Many bureaus and offices across the Department and the U.S. Agency 
for International Development (USAID) diplomatically and 
programmatically engage on children's issues, including on matters 
related directly to international child welfare and protection. This 
work is accomplished via multifaceted approaches to improving health, 
education, security, social and child welfare systems, capacity to 
provide humanitarian assistance, governance, rule of law, and the 
protection and advancement of human rights across the globe.
    This multifaceted support extends beyond the expertise and capacity 
of any single office, bureau, or portfolio. It includes U.S. support 
for UNICEF's child protection-related efforts around the world; 
economic support aimed at strengthening families affected by HIV/AIDS 
to ensure that they can stay together; support for child welfare 
systems that includes addressing children outside of family care and 
promoting permanent family placements, made possible by the President's 
Emergency Plan for AIDS Relief (PEPFAR); support for family 
reunification and child protection programming in humanitarian 
emergencies through State's Bureau of Population, Refugees, and 
Migration and the Office of Foreign Disaster Assistance at USAID; and 
other bilateral and multilateral efforts. These are just a few 
examples.
    The Department's Bureau of Consular Affairs, which fulfills many of 
the Department's day-to-day responsibilities as the U.S. Central 
Authority under the Hague Convention on Protection of Children and Co-
operation in Respect of Intercountry Adoption (Hague Adoption 
Convention) and the Hague Convention on the Civil Aspects of 
International Child Abduction (Hague Abduction Convention), plays an 
important part in these efforts by supporting other countries in their 
implementation of either or both Conventions. Protecting children and 
families in the intercountry adoption process through the Hague 
Adoption Convention and ensuring that ethical and transparent 
intercountry adoption remains an option for children, when it is in a 
child's best interests, are important pieces of the Department's 
overall effort to protect children and promote healthy child 
development and responsive and supportive child welfare systems.
    The Department remains committed to working with Congress to ensure 
that U.S. support for children in adversity is robust, and that U.S. 
implementation of the Hague Adoption Convention is strong, effective, 
and transparent--without the establishment of a new, costly, and 
unnecessary bureaucracy. The creation of a new bureau or office within 
the Department focused on international child welfare or intercountry 
adoption will create overlapping mandates within the Department and 
with USAID. It would confuse and undermine multiple, well established 
roles and responsibilities of individual components of both agencies, 
and would be detrimental to their key relationships with U.S. and 
foreign governmental and non-governmental partners. A new bureau or 
office could also undermine existing capacities for effective, 
multilayered interventions, interfering with efforts to integrate 
programs across sectors so that they most benefit children, their 
families, and the communities in which they live. Centralizing 
activities under one office, with one mandate, may diminish existing 
activities that are not explicitly ``child-focused,'' yet are still 
fundamental for children in adversity, such as programs focusing on 
nutrition, shelter, livelihood, gender-based violence, women and girls' 
empowerment, and humanitarian assistance. It would also be 
inappropriate for a new Department office with an international child 
welfare mandate to be singularly focused on international adoption as 
its sole remedy.
    The Department and USAID have taken steps over the last year to 
improve coordination and collaboration in order to maximize the impact 
of our work to improve the lives of children in adversity. APCA was 
launched at the White House in December 2012; individual agency 
implementation plans were published in September 2013; programs from 
Department bureaus and offices that were not already consistent with 
the APCA's objectives have been increasingly aligning with them in new 
and ongoing programs; and the first meeting of the Senior Policy 
Operating Group on Children in Adversity (SPOG-CA) convened in 
February. In the interim, with support from the Department's Senior 
Advisor for Development, the Department created a Task Force on 
Children in Adversity (TFCA) to promote APCA and improve internal 
coordination and information sharing across the Department and with 
USAID. The TFCA also coordinates to identify complementary and 
strategic diplomatic, programmatic, and policy actions for the range of 
Department bureaus and offices that are already working to assist 
children in adversity globally. We expect that the SPOG-CA will 
reconvene soon under the leadership of the reformulated USAID Center 
for Excellence on Children in Adversity.
    International child welfare is a complex issue which requires a 
multitude of actors and responses. We believe by focusing on 
coordination we can enhance programming and best demonstrate the U.S. 
Government's commitment to assisting children around the world.
    Question. A number of prominent organizations that support 
international child welfare and adoption wrote to you in December to 
request that you take immediate action to address shortcomings in the 
Department of State's implementation of The Hague Adoption Convention. 
To my knowledge, that letter has not been answered.
  --How do you explain the fact that there have been no reported 
        international adoptions from any country that has become a 
        Hague partner with the United States since 2008?
  --Do you agree with the criticism in the letter that the Office of 
        Children's Issues has failed to implement a transparent and 
        effective system for determining partner country compliance 
        with the Hague Convention?
  --If so, what steps are you taking to correct the situation?
    Answer. The Department of State supports intercountry adoptions. As 
the U.S. Central Authority for adoptions, the Department's primary goal 
is to ensure that all U.S. intercountry adoptions are ethical, 
transparent, and protect children and families. To accomplish this, the 
Department maintains strong lines of communication with all Hague 
Adoption Convention (Convention) countries in order to promote 
cooperation, coordination, and the best interests of children. Every 
year, children from countries that are parties to the Convention are 
adopted by loving U.S. families. In fiscal years 2013 and 2012, 46 
percent and 37 percent of all U.S. adoptions were from Convention 
countries, respectively. China remains the top country of origin for 
U.S. intercountry adoptions, and last year, hundreds of children were 
adopted from Bulgaria, Colombia, India, Latvia, and the Philippines--
all Convention countries.
    Since the Convention entered into force for the United States, 15 
new countries have become party to the Convention: Cabo Verde, Fiji, 
Greece, Ireland, Kazakhstan, Lesotho, Liechtenstein, Macedonia, 
Montenegro, Rwanda, Senegal, Seychelles, Swaziland, Togo, and Vietnam. 
The annual number of intercountry adoptions from the majority of these 
15 countries did not change significantly after the entry into force of 
the Convention. Historically, few children immigrated to the United 
States through intercountry adoption from each of these countries, with 
the exception of Kazakhstan, Rwanda, and Vietnam.
    Several factors in all of the countries affect the number of U.S. 
adoptions. Five new Convention countries (Greece, Ireland, 
Liechtenstein, Macedonia, and Seychelles) have developed child welfare 
and adoption systems and/or have few children in need of intercountry 
adoption. Ireland provides a good example. Ireland identifies solely as 
an adoption receiving country, not a country of origin. Ireland's 
Central Authority strictly applies the Convention's subsidiarity 
principle with the result that most Irish orphans are placed 
domestically, and few children are eligible for intercountry adoption. 
Adoptions from Greece, Liechtenstein, Macedonia, and Seychelles are 
similarly very rare, as they were before these countries joined the 
Convention. Family preservation resources and effective, permanent 
domestic placement options are available in those countries.
    Three other countries (Rwanda, Senegal, and Swaziland) have 
suspended all intercountry adoptions while reviewing their ability to 
implement the Convention. A fourth, Kazakhstan, temporarily suspended 
intercountry adoptions to the United States in August 2012, citing 
concerns about the welfare of adopted children related to a number of 
very grave, but isolated, cases of abuse in the United States. The 
Department had announced its ability to issue Hague Adoption and 
Custody Certificates in incoming Convention adoptions from Kazakhstan 
in May 2012. Since 2012, the Department and U.S. Embassy Astana have 
made every effort to respond to Kazakhstani concerns and persuade the 
Government of Kazakhstan to resume intercountry adoptions for U.S. 
families. Our efforts include multiple, high-level bilateral meetings 
in the United States and Kazakhstan, facilitation of consular access of 
Kazakhstani officials to adopted Kazakhstani children in the United 
States, and communication with U.S. parents of adopted children on the 
importance of meeting post-adoption requirements.
    On the other hand, a number of countries, including Cabo Verde and 
Fiji, had not fully implemented the Convention at the time it entered 
into force. Both countries are still developing procedures to implement 
the Convention and the capacity to carry out Convention safeguards. 
Under U.S. law, the Department is not able to process Convention 
adoptions for countries that have failed to develop adoption systems 
that uphold these safeguards. The Department continues to work with 
such countries to assist with Convention implementation.
    The Department's efforts in Vietnam and Lesotho in this regard are 
particularly noteworthy. Following the Convention's entry into force on 
February 1, 2012, Vietnam has only recently trained its central and 
provincial adoption officials on the Convention and related new laws. 
Resuming adoptions with Vietnam is among U.S. Embassy Hanoi's highest 
priorities, and the U.S. Special Advisor for Children's Issues has 
travelled to meet with Vietnamese adoption officials four times since 
2010 to advocate for successful reforms. Additionally, USAID support 
for UNICEF on adoptions has been instrumental in improving Vietnam's 
legal and regulatory system. Currently, the Department is working 
towards establishing a limited adoption program for children with 
special needs, older children, and children in sibling groups. The 
Government of Vietnam is currently vetting U.S. adoption service 
providers and has indicated that it plans to authorize two. (For more 
information, please see the Department's September Adoption Notice, 
available here: http://
adoption.state.gov/country_information/
country_specific_alerts_notices.php?alert
_notice_type=notices&alert_notice_file=vietnam_7). The Department is 
hopeful that we will be able to announce our ability to issue Hague 
Certificates for adoptions from Vietnam later this year. In Lesotho, 
the Convention entered into force in December 2012. In February 2013, 
Lesotho lifted its suspension of intercountry adoptions, which had been 
in place as it implemented Convention procedures. We determined we 
would be able to process adoptions with Lesotho beginning March 1, 
2013. The Government of Lesotho has authorized one U.S. adoption 
service provider, published new procedures on intercountry adoptions 
fees, and is now processing adoptions.
    Additionally, three countries became party to the Convention on 
April 1, 2014: Croatia, Haiti, and Serbia. The Department has since 
announced positive determinations for these newest Convention partners, 
as well as for Montenegro, where the Convention entered into force in 
2012. The Department has announced our ability to issue Hague Adoption 
or Custody Certificates for all Convention adoptions from these 
countries.
    As the Central Authority for intercountry adoption, the Department 
must certify that adoptions are in compliance with the Convention. The 
examples provided above illustrate our commitment to this process. If a 
country's adoption system does not uphold the safeguards of the 
Convention, adoptions finalized in that country are not considered to 
be compliant. It is therefore instrumental for the Department to assess 
each country's ability to implement procedural safeguards and governing 
structures consistent with Convention standards. We accomplish this 
through review of a country's laws, procedures, practices, and 
infrastructure. Our Web site, adoption.state.gov, provides a thorough 
description of our approach.
    The Department has taken several additional steps to increase 
transparency and public dialogue as this review process unfolds. The 
Bureau of Consular Affairs (CA) posts frequent Adoption Notices and 
Alerts to adoption.state.gov on changes or expected changes to a 
country's adoption laws, procedures, practices, or infrastructure as 
information is made available. CA also hosts quarterly public 
stakeholder meetings for non-profit organizations and U.S. adoption 
service providers to provide updates and answer questions.
    If the Department determines that a country does not meet the 
required standards, we strongly encourage the country to implement the 
necessary legal framework and procedures to uphold the Convention's 
standards and principles before becoming a party to the Convention. The 
Department will also encourage the country's officials to consider 
establishing procedures to allow adoptions initiated prior to the 
Convention's entry into force be completed through the pre-Convention 
procedures. The Department's goal is to prevent a disruption in 
adoptions and ensure that there is no unnecessary delay in processing 
pending adoptions due to the Convention entering into force.
    Question. In a letter you sent to me on September 16, 2013, you 
indicated that the Department of State and USAID were moving forward 
aggressively to implement the Action Plan on Children in Adversity, 
which the White House released in December 2012, and which for the 
first time explicitly states that families for children is a priority 
goal of U.S. foreign policy. More specifically, you stated that you had 
recently formed a Senior Policy Operating Group (SPOG) made up of key 
players from the State Department and USAID and had directed them to 
lead implementation of the Action Plan. So is it fair then to say that 
this SPOG is the designated leader of the United States Government's 
efforts to implement the Action Plan for Children in Adversity and if 
so,
  --In the 15 months since the National Action Plan on Children in 
        Adversity was released, what concrete actions the Department of 
        State taken to advance the Plan's implementation?
  --How much funding did the U.S. State Department spend on programs or 
        policies implemented in support of the Action Plan in fiscal 
        year 2014? How much do you anticipate will be spent on 
        activities related to the Action Plan in fiscal year 2015?
    Answer. The umbrella of the National Action Plan for Children in 
Adversity provides an overarching platform and a welcome lens for 
ongoing State Department programs and activities, all of which address 
various dimensions of children in adversity around the world.
    For instance, to support building strong beginnings for children in 
adversity, the Department's Bureau of Population, Refugees, and 
Migration (PRM) supports protection activities including health and 
education programming for conflict-affected populations through 
humanitarian partners including the office of the UN High Commissioner 
for Refugees (UNHCR), the UN Children's Fund (UNICEF) and the UN Relief 
and Works Agency for Palestine Refugees in the Near East (UNRWA). For 
example, UNRWA runs one of the largest education programs in the Middle 
East, serving more than 490,000 school-age children at over 700 schools 
in Gaza, the West Bank, Jordan, Syria, and Lebanon. PRM also supports 
the No Lost Generation initiative, a campaign by the United Nations, 
governments, and international and non-governmental organizations to 
address the immediate and long-term impacts of the Syria crisis on a 
generation of children and youth in Syria and the Near East region.
    In another example, the President's Emergency Plan for AIDS Relief 
has supported family care for children by spearheading the 
strengthening of child welfare and protection systems, including the 
enhancement of the social welfare workforce. If child welfare and 
protection systems are strong and working, then the services required 
for children in adversity will be in place. These system-strengthening 
efforts therefore serve to bolster all aspects of child welfare to 
support all children, including those who are outside of family care. 
For example, through PEPFAR support:
  --In Uganda, more than 1,100 Community Development Officers and 
        probation officers have completed training and attained 
        university accreditation in child protection, and now provide 
        services to 66,000 children.
  --In South Africa, more than 2,000 para-professional social workers 
        have been provided stipends and child welfare skills training. 
        And a partnership with South Africa's Ministry of Social 
        Development has helped support 10,000 new Child & Youth Care 
        Worker positions by 2017. As a result, more than 1.4 million 
        vulnerable children will be served.
  --In Tanzania, 4,000 community volunteers provide support for 
        vulnerable children through various implementing partners. In 
        addition, a Twinning Center partnership has trained 2,408 para-
        social workers (PSWs) and 329 supervisors in 25 districts.
    Diplomatically, the Department's Bureau of International 
Organizations supports the United Nations in promoting child survival 
and child development. Following June 2012's ``Child Survival: Call to 
Action conference? meeting?'' which the U.S. hosted along with India 
and Ethiopia, the United States is pleased to see that to date, 
representatives of 174 governments, 215 civil society partners, and 221 
faith-based organizations have signed pledges to take action along with 
UNICEF. The United States is glad to be a partner with UNICEF in 
supporting this effort, which is believed to accelerate progress 
towards Millennium Development Goal 4 and 5 targets, and ultimately 
help to end all preventable child and maternal deaths. The United 
States continues to support the UN Population Fund (UNFPA), which 
supports and funds programs in more than 150 countries in an effort to 
achieve Millennium Development Goal 5 of improving maternal health, and 
in turn, also reduces maternal and child mortality.
    Additionally, by delivering national statements in UN forums--
including the UN General Assembly, the UN Human Rights Council, the 
UNICEF and UNFPA Executive Boards, and other UN organizations that 
support children--the United States calls on organizations and states 
to incorporate the needs of children in their planning and policies. 
The United States also emphasizes the particular needs, 
vulnerabilities, and potential of girls, and consistently raises these 
issues in UN forums and diplomatically with partner governments.
    The Department of State also works through diplomatic channels to 
strongly support intercountry adoption as an essential part of a fully 
developed child welfare system. We promote ethical and transparent 
adoption processes for prospective adoptive parents, birth families, 
and children involved in intercountry adoptions, a process that ensures 
that an adoption is completed in the best interests of the child and 
when a domestic placement in the child's home country is not possible. 
The Office of Children's Issues, within the Department's Bureau of 
Consular Affairs, engages bilaterally with foreign governments and 
collaborates with stakeholders in the adoption community and with our 
interagency partners on intercountry adoptions to promote these policy 
objectives. The Hague Adoption Convention is an important tool in 
support of this goal. Ninety-three countries are currently party to the 
Convention, including the United States.
    An important element related to concrete action and policy 
leadership includes the establishment of a Senior Policy Operating 
Group (SPOG) for Children in Adversity. This governmentwide, 
interagency body is co-led by the Department of State's Senior Advisor 
for Development and USAID's Center of Excellence for Children in 
Adversity (USAID/CECA). The SPOG is strengthened by the day-to-day 
coordination efforts of State's Task Force for Children in Adversity 
(TFCA), which works in partnership with USAID/CECA and the interagency 
working group led by USAID to advance the children in adversity agenda.
    For example, TFCA and USAID/CECA recently collaborated to develop a 
Key Issue, or secondary budget code in the foreign assistance budget, 
called ``Children in Adversity.'' The ``Children in Adversity'' Key 
Issue is formulated to match the objectives of the APCA and gives 
visibility to the funding of thematic areas that are not generally 
discernable in the foreign assistance budget. Going forward, the 
``Children in Adversity'' Key Issue, combined with other ongoing 
efforts at State and USAID, does three things: (1) sends a signal to 
State and USAID that the children in adversity issue is being further 
elevated across the foreign assistance portfolio, (2) establishes a 
common definition for children in adversity within foreign assistance 
programming, and (3) strengthens existing efforts to thematically 
integrate children in adversity into the foreign assistance strategic 
planning, budgeting and performance management processes.
    Finally, allocations for fiscal year 2014 foreign assistance 
appropriations are in the midst of being finalized; however, programs 
that support the world's most vulnerable population--children in 
adversity--are reflected throughout the budget. Similarly, the fiscal 
year 2015 request emphasizes the United States' continuing commitment 
to children.
    Question. Russia's invasion of Ukraine is not only an attack on 
that country's sovereignty but a threat to the stability of the entire 
region. One key aspect of Russian influence in Ukraine has been its 
energy exports, particularly natural gas flowing through Ukraine to the 
remainder of Europe. As you know, the administration recently proposed 
$1 billion in loan guarantees to help insulate the Ukrainian economy 
from the effects of reduced energy subsidies from Russia--a measure 
that has been reinforced by recently passed legislation in the House 
and legislation pending in the Senate.
  --In addition to these measures, how can the United States use its 
        diplomatic influence and growing energy production to mitigate 
        these threats?
    Answer. Ukraine's sovereignty and independence is a strategic 
foreign policy priority for the United States, and no issue is more 
important than Ukraine's energy security. Ukraine's energy security, 
and the commitment of the United States to support Ukraine, was at the 
forefront of the U.S.-European Union (EU) Energy Council meeting which 
I chaired with EU High Representative Ashton, EU Energy Commissioner 
Oettinger, and U.S. Deputy Secretary of Energy Poneman on April 2.
    The United States is working with Ukraine, its western neighbors, 
the EU, and the private sector to provide gas from European companies 
to Ukraine to offset its reliance on Russian imports. We are seeking to 
provide urgently needed international financial support to Ukraine and 
encouraging Ukraine to use its foreign exchange reserves to finance gas 
purchases.
    In addition to these short-term measures, we are working with other 
donors and the private sector to help Ukraine bridge to long-term 
increased self-sufficiency in gas by raising domestic production, 
through modernization of existing conventional fields and contracts 
negotiated in 2013 for unconventional gas development.
    The United States is also working closely with the Government of 
Ukraine to increase energy efficiency practices, which will further 
decrease reliance on energy imports. The $1 billion in loan guarantees 
provided by the United States will be available to help the Ukrainian 
Government ensure that increased energy costs, which will go into 
effect as early as May 1 as part of a reform package mandated by the 
IMF, will not adversely impact Ukraine's most vulnerable energy 
consumers.
    Under the auspices of the U.S.-Ukraine Energy Security Working 
Group, the U.S. Special Envoy for International Energy Affairs Carlos 
Pascual and Ukrainian Minister of Energy Yuriy Prodan, will continue to 
advance these initiatives.
    Question. Last July, the full Appropriations committee voted on a 
narrow waiver to the prohibition on funding UNESCO (United Nations 
Educational, Scientific and Cultural Organization). By a vote of 19-11, 
the full committee provided a waiver, as well as $700,000, to the World 
Heritage program at UNESCO. For no good reason at all, the House 
deleted this line item, and refused to include it in the Omnibus 
spending package that was approved this January. Let me explain why I 
am so passionate about this issue. Poverty Point is a cultural and 
historic gem in Louisiana. It is a landmark relic from prehistoric, 
hunter-gatherer times, and is a collection of magnificent earthworks 
that were a commercial center for the region. If the Congress does not 
provide waiver authority and funding for the World Heritage Program, 
then we hurt Poverty Point's chances of being designated a World 
Heritage site. This would have significant economic impacts on my 
State. And by the way, there are 13 other States that are in the same 
situation.
  --I see that the administration once again seeks waiver authority for 
        funding this and other UN entities. Given the critical U.S. 
        interests in providing waiver authority and funding to the 
        World Heritage program, given that this Committee already voted 
        to provide that funding, and given that the Israeli Government, 
        who should be most concerned about this issue, supports a 
        narrow waiver for World Heritage funds, what is the 
        administration able to do to show how critical this waiver is?
  --What can you do to educate Members of Congress on the critical 
        economic impact for 14 States that are at stake if World 
        Heritage funding is denied once again for no good reason?
    Answer. As a founding member and the driving force behind the World 
Heritage Convention of 1972, the United States remains committed to 
advancing the Convention's ideals to preserve our world's outstanding 
cultural and natural heritage. Partnering with our colleagues in the 
U.S. Department of Interior, the State Department strongly advocates 
for promoting and preserving our twenty-one inscribed U.S. World 
Heritage sites, and works diligently to advance vital U.S. economic and 
cultural interests by guiding the nomination process for inscribing new 
U.S. sites.
    As you mention, the World Heritage Committee will consider the 
inscription of Poverty Point State Historic Site in Louisiana during 
its 38th Meeting this June in Doha, Qatar. We will enthusiastically 
champion this nomination in Doha, and will send a delegation of U.S. 
cultural heritage policy and technical experts to support the 
inscription efforts on behalf of Poverty Point. We believe the 
administration's unwavering commitment to full engagement at UNESCO and 
our respected leadership on World Heritage issues will reinforce the 
compelling case for inscription of Poverty Point in 2014, and for the 
San Antonio Franciscan Missions nomination to be considered by the 
World Heritage Committee in 2015.
    As you rightly point out, designation as a World Heritage site can 
be a significant driver of international recognition, tourism, 
community pride, economic development, and long-term conservation 
planning and resources. For all these reasons, funding for the World 
Heritage program is, and will remain, an important priority for the 
United States.
    Withholding our assessed contributions to UNESCO led to the loss of 
our vote in UNESCO's General Conference in 2013. More generally, 
withholding our support to UNESCO hampers our ability to advance U.S. 
interests in World Heritage, to sustain Holocaust education as a means 
to combat anti-Semitism and prevent future atrocities, and to promote 
freedom of expression, including for the press, and safety for 
journalists globally. This administration seeks a national interest 
waiver to allow the discretion necessary to continue to provide 
contributions that enable us to maintain our vote and influence within 
the UN and UN specialized agencies, including UNESCO. Through the 
waiver, the administration aims to empower the United States to 
determine how and when we engage in multilateral organizations, and to 
advance the interests of the United States and its closest partners 
across the full spectrum of policy goals.
    Experts from the State Department are available to brief you and 
other Members of Congress in more detail on our important work at 
UNESCO and on the World Heritage program should you have more 
questions. I appreciate your ongoing efforts to highlight the 
importance of U.S. leadership at UNESCO and to advance our national 
interests through World Heritage recognition of U.S. sites with 
outstanding universal value for all of human kind.
    Question. The PEPFAR Stewardship and Oversight Act, a bill which 
reauthorizes the 10 percent set aside for Orphans and Vulnerable 
Children (OVC) in the President's Emergency Plan for Aids Relief 
(PEPFAR), became law last December. This OVC money represents a huge 
part of the international investment--about $350 million per year--for 
orphans and vulnerable children, and supports efforts to keep these 
children in school, reduce barriers to healthcare and nutrition, and 
improve protection from abuse and neglect. However, after extensive 
conversations with PEPFAR staff at the Department of State, I was 
shocked to learn that none of this $350 million in OVC funds is spent 
on programs that provide alternative family care for those children who 
are unable to remain with their biological family. Simply put, the 
largest U.S. Government-funded programming for double orphans does 
nothing to help these children to no longer be orphans! In fact, the 
number of worldwide orphans is increasing. When PEPFAR was first passed 
in 2003, there were an estimated 15 million children orphaned by AIDS. 
Today there are 17 million. I originally intended to file an amendment 
to S.1545 that would have fixed this ironic inadequacy with the OVC 
program, but out of deference to Chairman Menendez and Ranking Member 
Corker and in consideration of the overall goals of PEPFAR, I set aside 
my amendment and gave consent for the bill to move for final passage. 
I'd like to take the opportunity here to ask for your input on how 
Congress might work together with the State Department to improve the 
OVC Set Aside.
  --Are you aware that the OVC set aside in PEPFAR does not focus on 
        finding permanent families for children, other than family 
        preservation efforts?
  --What can be done to ensure that programs funded under PEPFAR for 
        orphans and vulnerable children through the 10 percent Set-
        Aside give priority to children who are living outside of 
        family care and are aimed at finding permanent placements for 
        children through family reunification and kinship, domestic or 
        international adoption?
    Answer. PEPFAR is strongly focused on both finding families for 
children and on maintaining children in permanent families.
               why pepfar focuses on family preservation
    As stated in the Action Plan for Children in Adversity, a whole-of-
government strategic guidance on international assistance for children, 
efforts for Objective 2: Putting Family Care First ``should primarily 
be directed to enabling the child to remain in or return to the care of 
his/her parents or, when appropriate, other close family members. 
Strengthening families is a first priority.'' (p.9) Stable, caring 
families and communities and strong child welfare systems are the best 
defenses against the effects of HIV/AIDS in the lives of children.
    While the majority of children affected by AIDS are not outside of 
families or ``parentless,'' this does not mean that very large numbers 
are not vulnerable as a result of AIDS.
    The most effective approach to addressing the extreme vulnerability 
that children face in the epidemic is to ensure that the parents and 
caregivers who are left and are caring for children stay strong and 
healthy and have the resources and skills to keep the children in their 
care safe and thriving.
                   how pepfar puts family care first
    PEPFAR Orphans and Vulnerable Children (OVC) programs work to put 
family care first by engaging in activities aimed at preventing 
separation and keeping children in families, and where necessary, 
reintegrating children into family care. These are all core principles 
of APCA Objective 2.
    Moreover, PEPFAR invests in evidence-based programming that 
dramatically increases a vulnerable family's ability to care for 
children. Household economic strengthening prevents the separation of 
children from families due to the economic burden of HIV. PEPFAR OVC 
programs have supported 10,000 savings groups in 15 countries. As a 
result, approximately 1,000,000 children affected by AIDS are living in 
families with improved economic stability. Such programs are enhanced 
by PEPFAR OVC programs that link parents to social protection efforts 
such as cash transfers, further increasing their ability to provide for 
children in their care.
           pepfar support for children outside of family care
    While family preservation remains at the core of PEPFAR's work, 
these efforts are intertwined with ensuring children outside of family 
care (COFC) are also supported as a priority within PEPFAR OVC 
programs.
    For example, in South Africa, PEPFAR, in partnership with the 
government has supported legislation and policies that encourage 
permanent family placement and in-country adoption specifically. The 
results of these efforts include a revised National Adoption Policy, 
which is enhanced by PEPFAR supported adoption education and an ``Adopt 
RSA Kids'' Web site, as well an updated National Action & Monitoring 
Plan for Children infected and affected by HIV and AIDS. In Mozambique, 
PEPFAR is supporting the placement of at least 6,000 vulnerable 
children deprived of parental care into families. These efforts will be 
supported by the development of a simplified guardianship information 
system to regulate placement of children and to ensure that a safe and 
monitored care placement.
    In addition, in Tanzania, an assessment of children living on the 
street and children within key and other vulnerable populations (e.g. 
sex workers and trafficked children) is planned for early 2015. 
Following on this assessment, implementing non-governmental 
organization (NGO) partners will strengthen linkages to health, 
temporary shelter, family placement/reintegration and other services 
for children living on the street or without reliable shelter and adult 
care. In Uganda and Ethiopia the PEPFAR supported organization Retrak 
works with street children by helping them to return to family (or find 
new families), and by ensuring those families have the follow up 
support (parental skills, economic opportunities) to ensure children 
can stay there.
    On a global level PEPFAR supports the development and dissemination 
of guidance and tools to build capacity in permanency solutions. For 
example, PEPFAR financially supported USAID's Center for Excellence on 
Children in Adversity in the development of a methodology for 
surveillance of children living outside of family care and contributed 
to the Evidence Summit on Children Outside of Family Care. PEPFAR is 
also a long-term supporter of the Better Care Network which 
disseminates state of the art evidence, tools and technical assistance 
aimed at promoting permanency solutions for children globally.
                  child welfare systems strengthening
    The best and most sustainable way to support children outside of 
family care is to support the child welfare systems that can ensure 
they are safe and placed in permanent family care. As stated in the 
APCA under Objective 4: ``Effective and well-functioning child welfare 
and protection systems are vital to a nation's social and economic 
progress, . . . Protection services prevent and respond to child abuse, 
both within and outside the home, and . . . provide appropriate care 
for children separated from their families of origin.''
    Strengthening child welfare and protection systems is a central 
focus of PEPFAR's OVC programming, and PEPFAR has spearheaded such 
efforts globally. PEPFAR works with governments to promote robust child 
welfare systems strengthening, and enhanced social welfare workforce 
capacity to prevent and respond to child abuse. PEPFAR partners work 
together to deliver high-quality child welfare and protection services 
that reduce vulnerability, ensure access to essential services--
including those for health and HIV--prevent and respond to violence 
against children, and preserve family structures in AIDS-affected 
communities. Important improvements in child welfare systems are 
underway in many countries, including social protection through child 
grants, deinstitutionalization, and foster care. Addressing these needs 
requires strong child welfare systems and intentional workforce 
strengthening that facilitates access to services across sectors for 
vulnerable children in and outside of families.
    Question. The scale of the Syria crisis continues to increase 
exponentially. Nine million Syrians, approaching half of the country's 
pre-war population, have fled their homes. Six and one-half million 
people are internally displaced and nearly 2.5 million have sought 
refuge in neighboring countries. The suffering of Syrian civilians is 
alarming and overwhelming, with women and children disproportionately 
vulnerable to the violence and the effects of the war. Before the 
conflict, Syria was a middle-income country with low child mortality 
rates. Now, deadly diseases such as measles and meningitis are on the 
rise and vaccine programs in Syria have collapsed. Even polio, 
eradicated in Syria almost 20 years ago, is now being carried by up to 
80,000 children across the country--a figure so high that medical 
experts have raised concerns about a potential international spread of 
the virus. Despite the continued expansion of humanitarian need, the 
President's fiscal year 2015 budget proposal requests $1.6 billion less 
in funding for the International Disaster Assistance and Migration and 
Refugee Assistance accounts than Congress provided in the fiscal year 
2014 Omnibus Appropriations bill.
  --How can the administration's proposed budget ensure that the U.S. 
        continues to provide its fair share of contributions to respond 
        to the Syria crisis in light of growing humanitarian needs?
  --What is the U.S. Government doing to provide immediate access to 
        child-focused health services in Syria to ensure that these 
        children do not only survive preventable and treatable 
        illnesses, but are also thriving in the arms of a permanent 
        caregiver?
    Answer. The U.S. Government is the single-largest donor of 
humanitarian assistance for those affected by the Syria crisis, 
providing more than $1.7 billion in humanitarian aid since the start of 
the crisis--nearly $878 million to support those inside Syria, and 
nearly $862 million to support refugees fleeing from Syria and host 
communities in neighboring countries. Support inside Syria goes through 
trusted international and non-governmental organizations.
    In the fiscal year 2014 Omnibus Appropriations bill, Congress 
generously provided $2.2 billion in Overseas Contingency Operations 
(OCO) funding for humanitarian programs. This funding is critical to 
address growing humanitarian needs worldwide, including the Syria 
crisis, where the combined UN humanitarian appeal for Syria has nearly 
doubled over the last year and represents approximately half of the 
2014 total worldwide humanitarian need of $12.9 billion. Given the 
significant ongoing humanitarian needs inside Syria and across the 
region, the Department of State and the United States Agency for 
International Development plan to carry over funding from fiscal year 
2014 into fiscal year 2015 to help address the substantial needs of the 
projected 11 million internally displaced persons (IDPs) in Syria, 5 
million refugees from Syria in the region, about half of whom are 
children under 18 years of age, and communities in refugee-hosting 
countries that are enduring strains on basic infrastructure and health 
and educational systems.
    U.S. health assistance inside Syria has provided training for 
Syrian medical workers, direct healthcare services, supplies for 
hospitals and clinics and support for polio vaccination campaigns. The 
United States is supporting 298 hospitals, health clinics, and mobile 
medical units across Syria, which have treated more than 1.9 million 
Syrian patients and performed nearly 265,000 surgeries. These patients 
include innocent children caught in the crossfire as well as basic 
primary healthcare and services for those who become ill. The United 
States is also supporting the childhood vaccination efforts led by the 
World Health Organization (WHO) and UNICEF, who are working to 
vaccinate 22 million children across the region. The WHO and UNICEF 
have consistently reached over 2.5 million children in each of the last 
four vaccination campaigns inside Syria. Additionally, the United 
States supports disease surveillance and vaccination campaigns as part 
of its emergency primary healthcare programs throughout Syria. U.S. 
funding to the Office of the High Commissioner for Refugees inside 
Syria has supported UNHCR's efforts to provide $4.6 million worth of 
medicine to hospitals across Syria.
    In addition, U.S. funding for the United Nations Relief and Works 
Agency for Palestine Refugees in the Near East (UNRWA) has been 
critical to ensuring continued care for the more than 540,000 
Palestinian refugees in Syria, about one-third of whom are children and 
over half of whom are displaced. Although only 14 of UNRWA's 23 health 
centers remain operational due to ongoing conflict and access 
constraints, UNRWA has deployed nine mobile health points to reach 
Palestinians refugees in areas of displacement inside Syria.
    In addition to healthcare, the U.S. Government is helping children, 
mothers, fathers, and caretakers cope with psychosocial stress. We are 
also helping to provide appropriate protective care for their children 
and training community members in basic social work and case management 
skills so they may identify children at risk and connect them to 
available support. UNRWA is making efforts to address the needs of the 
more than 67,000 children enrolled in its schools by increasing the 
number of psychosocial counselors working across its network of schools 
and providing additional support to out-of-school children.
    U.S. support to the International Committee of the Red Cross (ICRC) 
helps improve the supply of potable water and sanitation inside Syria, 
benefiting and protecting vulnerable children. In 2013, 20 million 
people in Syria benefited from ICRC's improvements to water and 
sanitation facilities, ten million people--in all 14 governorates--
benefited from emergency repairs to water system damaged by fighting, 
3.1 million people benefited from a waste and pesticides program in 
Aleppo and Idlib governorates, and 810,000 benefited from water 
delivered by truck.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
    Question. Since 1979, the Foreign Operations appropriations bill 
has prohibited the use of funds to provide abortion services for Peace 
Corps volunteers and trainees, without exception. Under this rider, 
official policy requires that volunteers pay out of pocket for abortion 
care even in cases of rape, incest, and where a woman's life would be 
endangered by carrying the pregnancy to term. This is at odds with all 
other Federal employees who do receive coverage for these exceptions, 
and I have long supported healthcare parity for the women volunteers 
who are carrying out our diplomatic and humanitarian interests 
overseas. I appreciate that in the fiscal year 2015 budget, the 
administration has allowed for the healthcare parity for Peace Corps 
volunteers, and has allowed for abortion coverage for volunteers in 
cases of rape, incest, and life endangerment. Can you comment on the 
importance of providing this health equity to our volunteers?
    Answer. The Department of State defers to the Peace Corps on this 
matter as it is not within the State Department's purview.
    Question. At least 222 million women in the developing world would 
like to prevent or delay pregnancy but lack access to safe, effective 
contraception, and each year an estimated 287,000 women still die from 
pregnancy related causes. Can you talk about where you see 
opportunities for U.S. leadership to continue to make progress on 
expanding access to family planning and reproductive health information 
and services?
    Answer. With the help of Congress, the United States continues to 
be the world's largest bilateral donor for international family 
planning. This furthers demonstrates the U.S. Government's firm 
commitment to helping men and women across the globe meet their 
reproductive health needs. Enabling an individual or couple to decide 
whether, when, and how often to have children is vital to safe 
motherhood, healthy families, and prosperous communities. Family 
planning can reduce the economic burden on poor families and allow 
women more time to work outside the home, which leads to increased 
family income. These economic benefits of family planning contribute 
directly to the U.S. Government goal of ending extreme poverty in two 
decades. Research clearly shows that voluntary family planning programs 
not only improve health, reduce poverty, and empower women, but also 
save lives. When women bear children too early, too late, or too close 
together, there are negative impacts on their health and their 
children's health. USAID-supported research shows that family planning 
could prevent up to 30 percent of the estimated 287,000 maternal deaths 
that occur every year, by enabling women to delay their first pregnancy 
and space later pregnancies at the safest intervals. And if all babies 
were born 3 years apart, the lives of 1.6 million children under the 
age of 5 would be saved each year.
    The U.S. Government will continue to show leadership on this issue 
in multilateral fora such as the UN Commission on Population and 
Development, the UN Commission on the Status of Women, and the UN Human 
Rights Council. We persistently make the argument at these venues and 
elsewhere that reproductive health services, especially voluntary 
family planning, are essential to promote sustainable economic 
development, advance gender equality, and contribute to the U.S. 
Government's goals of Ending Preventable Child and Maternal Deaths and 
Creating an AIDS-free Generation.
    Through USAID, the U.S. Government advances and supports voluntary 
family planning and reproductive health programs in more than 45 
countries around the globe. As a core partner in the Family Planning 
2020 Initiative, USAID is committed to working with the global 
community to reach an additional 120 million women and girls with 
family planning information, commodities, and services by 2020. These 
services empower individuals to choose the timing and spacing of their 
pregnancies, bear children during their healthiest years, prevent 
unintended pregnancies, and nurture healthier families and communities.
    Additionally, the U.S. Government actively supports the UN 
Population Fund (UNFPA), the UN High Commissioner for Refugees (UNHCR) 
and many other development and humanitarian organizations to respond to 
the challenges of providing access to reproductive health services in 
crisis settings. This includes training staff, offering community 
education, establishing client follow-up, providing a variety of family 
planning methods, and maintaining a contraceptive supply chain system. 
Access to these life-saving interventions is linked to recovery from 
humanitarian and post-conflict situations, not just for women and 
girls, but also for their communities.
    Furthermore, as we focus on the ongoing 20 year review of the 
International Conference on Population and Development (ICPD) Program 
of Action, as well as the upcoming 20 year review of the 1995 Beijing 
Declaration and Platform for Action and the review of the Millennium 
Development Goals in 2015, the U.S. Government will continue to work 
toward advancing these goals. Improving the health and well-being of 
all individuals, especially women and children, promotes political and 
economic stability and social and economic progress. We will seek every 
opportunity to promote the participation of all stakeholders as we 
discuss the appropriate inclusion of sexual and reproductive health and 
reproductive rights, including family planning, in the Post-2015 
Development Agenda and into our development and poverty reduction plans 
and policies.
    Question. Internet freedom is under assault around the globe. In 
Russia, the government has blocked tens of thousands of dissident Web 
sites. In Ukraine, sites have been attacked. In Iran, 16 Internet 
activists were arrested in December, and online blogs and news outlets 
are frequently subject to closure. In China, bloggers remain extremely 
concerned by a recent government crackdown on Internet discourse. We 
are also witnessing challenges to Internet freedom emerging in 
countries as wide-ranging as Pakistan, Vietnam and Turkey.
    Are you concerned about the state of Internet freedom worldwide and 
what do you believe the State Department and the U.S. Government can do 
to more effectively promote an open Internet?
    Answer. We are very concerned about the state of Internet freedom 
worldwide, and are committed to promoting the human rights of freedom 
of expression, peaceful assembly and association just as we do offline. 
As President Obama said, ``We will fight hard to make sure that the 
Internet remains the open forum for everybody--from those who are 
expressing an idea to those who want to start a business.''
    The State Department seeks to promote, protect, and advance 
Internet freedom through bilateral and multilateral engagement, foreign 
assistance programming, and partnerships with civil society and the 
private sector.
    Bilaterally, we raise Internet freedom regularly in human rights 
and economic discussions with a wide range of countries, from China and 
Vietnam, to Turkey. We also work to advance human rights online through 
multilateral coordination efforts, such as the Freedom Online Coalition 
(FOC), a group of 22 governments spanning Asia, Africa, Europe, the 
Americas, and the Middle East, that is committed to collaborating with 
each other, as well as with civil society and the private sector, to 
advance Internet freedom. By strengthening partnerships with like-
minded governments we empower them to be regional leaders on Internet 
freedom.
    We look forward to the April 28-29 Freedom Online Coalition 
conference in Estonia, where we will continue to work with partners to 
advance a free and secure Internet, to ensure that the same rights that 
people have offline are also protected online, and that protection of 
these rights is governed by rule of law. We also work through the 
Internet Governance Forum, UN processes, and other working groups to 
preserve the multi-stakeholder character of the Internet.
    Programming is a vital tool to protect people and organizations at 
risk, provide capacity to safely communicate, push for reform of 
repressive policies, and improve technologies. With the support of 
Congress, we have issued grants to increase open access to the Internet 
for people in closed societies, support digital activists, counter 
censorship and repression, create and leverage technological 
innovations, and provide training, research, and advocacy.
    Our embassies advocate on behalf of imprisoned and arrested online 
activists. We engage daily with the civil society actors who shape the 
future of the Internet in their countries.
    We keep a consistent dialogue with the private sector on issues of 
Internet freedom. We are encouraged by corporations that make 
meaningful and principled commitments to respect human rights, 
including through initiatives such as the Global Network Initiative 
(GNI). This is a multi-stakeholder group that brings together IT 
companies, civil society organizations, investors, and academics to 
help corporations develop effective, practical responses to human 
rights challenges that arise while interacting with governments around 
the world.
    In sum, Internet freedom is a major policy priority, and we look 
forward to working with subcommittee members to advance Internet 
freedom worldwide.
    Question. As you know, Saturday, March 8 was International Women's 
Day. In its honor, I introduced a resolution to the Senate recognizing 
that the empowerment of women is inextricably linked to the potential 
of countries to generate economic growth, sustainable democracy, and 
inclusive security, and honoring the women in the United States and 
around the world who have worked throughout history to ensure that 
women are guaranteed equality and basic human rights. We have made a 
lot of progress, but there is clearly still work to further the health, 
rights and empowerment of women worldwide. Women lag far behind men in 
access to land, credit and decent jobs, even though a growing body of 
research shows that enhancing women's economic options boosts national 
economies. How can the role of women in the global economy be elevated 
and sustained, and how can we ensure the U.S. remains a leader on 
women's economic empowerment issues?
    Answer. The Department of State has made economic empowerment a 
centerpiece of American foreign policy, and recognizes the central role 
of women's economic participation. As I said last year, ``The United 
States believes gender equality is critical to our shared goals of 
prosperity, stability, and peace, and [that is] why investing in women 
and girls worldwide is critical to advancing U.S. foreign policy.'' In 
order to achieve these goals, we need to encourage, and harness the 
untapped talent and productivity of women across the globe. These 
efforts also highlight the role of the U.S. as a leader on women's 
economic empowerment issues globally.
    The Department is committed to elevating the role of women in the 
global economy through comprehensive efforts across regional and 
functional bureaus at the Department, and at posts worldwide. The 
Department's efforts are structured to build upon our significant 
progress in integrating the importance of women's economic empowerment 
into our foreign policy agenda. We do this by analyzing the areas where 
women face additional barriers to economic participation and 
empowerment, and addressing them. These efforts to both identify gaps 
and create mechanisms to address those gaps are focused in four areas: 
(1) access to markets; (2) access to capital/assets; (3) access to 
skills, capacity building and health; and (4) women's leadership, voice 
and agency.
    The Department works in numerous ways to advance the economic 
status of women, and the Secretary's Office of Global Women's Issues 
(S/GWI) leads and coordinates these efforts across the Department. One 
key focus is to support and strengthen women's entrepreneurship 
initiatives and networks. The United States has created and expanded 
regional programs to provide women business owners, entrepreneurs, and 
leaders with training, skills, networks, and other resources needed to 
expand their businesses and increase potential. There are several 
efforts across the globe, including for example, the Africa Women's 
Entrepreneurship Program (AWEP) and Women's Entrepreneurship in the 
Americas (WEAmericas).
    A second is to integrate women's economic participation into major 
regional and international economic fora, including the Asia Pacific 
Economic Cooperation, Association of South East Asian Nations, Lower 
Mekong Initiative, Broader Middle East and Northern Africa Initiative, 
the Africa Growth Opportunity Act (AGOA), the Organization for Economic 
Co-operation and Development (OECD), the Summit of the Americas, the 
Pathways to Prosperity in the Americas Initiative, Regional Economic 
Cooperation Conference for Afghanistan (RECCA), the G-20 and the Equal 
Futures Partnership. Economic, trade, and finance ministers have 
reacted favorably and have continued to express interest in engaging on 
this topic. These meetings recognize the barriers women face in fully 
contributing to the economy and encourage governments and the private 
sector to implement policies and reforms, collect better data, and 
share best practices that will enable women to play a more active role 
in the economic sphere.
    Lastly, the Department utilizes public private partnerships to 
address barriers to women's economic participation. Current and past 
partnerships include partnerships with the private sector, 
universities, and international institutions. These partnerships have 
focused on support for specific initiatives, research, and data 
collection and analysis.
    Question. In your testimony, you mentioned the role the State 
Department is already playing on economic diplomacy and creating 
opportunities for American business overseas. I know Secretary Clinton 
focused on business advocacy abroad as well. I've heard first hand from 
businesses in my home State of New Hampshire the important role the 
State Department can play for our businesses abroad in advocating for 
their interests. Do you believe this budget provides you the resources 
necessary to make U.S. business advocacy a priority overseas?
    Answer. The Department of State works to advance the interests of 
the United States overseas, including our economic interests. By 
supporting U.S. businesses overseas--from knocking down trade barriers 
and protecting intellectual property rights to direct advocacy for 
specific U.S. firms seeking contracts with foreign governments--we 
expand our influence while creating jobs here at home. Business 
advocacy is already a priority for the Department, both in Washington 
and at our overseas posts. In fiscal year 2013 the Department recorded 
971 ``success stories,'' defined as an export deal achieved, dispute 
resolved, or foreign policy changed through Department advocacy. 
Additional resources would, of course, allow us to do more and to 
generate more wins for American businesses. However, recognizing the 
current austere budget environment we face, we will continue to work 
with business and with our partner agencies, including the Departments 
of Commerce and Agriculture, to generate the biggest return possible 
for the dollars we invest in supporting U.S. business overseas.
    Question. As you are aware, last year the State Department faced a 
growing backlog of immigration visa applications from Afghans who, at 
tremendous risk to their own lives and to the lives of their family 
members, assisted the United States and NATO as translators in 
Afghanistan. What is the status of the implementation of the new Iraqi 
and Afghan SIV procedures and provisions under the 2014 NDAA, and has 
the backlog been sufficiently addressed?
    Answer. The State Department and the other U.S. Government 
departments and agencies involved in the Special Immigrant Visa (SIV) 
process have the highest respect for the men and women who have taken 
enormous risks while helping our military and civilian personnel. We 
are committed to helping those who--at great personal risk--have helped 
us. Over the past year, we improved processing times, expanded outreach 
to current and former employees who may be eligible, and issued more 
SIVs in Afghanistan (and in Iraq) than in any previous year.
    In the first half of fiscal year 2014, we have issued more SIVs to 
Afghans and their dependents than in all of fiscal year 2013 and have 
more than doubled the total number of Afghan principal applicants 
issued in fiscal year 2013 (651). In fiscal year 2014, through April 8, 
we have issued 3,617 SIVs to Afghans and their dependents; 1,320 SIVs 
of which were issued to Afghan principal applicants. All approvable 
Iraqi principal applicants were issued prior to the program's temporary 
end on September 30, 2013. In fiscal year 2014, as of April 8, we have 
issued an additional 912 SIVs to Iraqis and their dependents, with 218 
of these SIVs to Iraqi principal applicants. The relatively low number 
of issuances to date in fiscal year 2014 for Iraqis reflects the 
success of the surge at the end of fiscal year 2013.
    We have done this while maintaining the highest standards of 
security for the SIV program. We have a responsibility to the American 
people to ensure all those who enter the United States, including SIV 
recipients, do not pose a threat.
    Provisions contained in the National Defense Authorization Act 
(NDAA) fiscal year 2014 have allowed us to streamline some SIV 
procedures. Under this legislation, a credible sworn statement 
depicting dangerous country conditions, together with official evidence 
of such country conditions from the U.S. Government, should be 
considered in determining whether an applicant has experienced or is 
experiencing an ongoing serious threat; therefore, the Embassy Kabul 
COM Committee no longer assesses the serious threat qualifier for each 
individual SIV applicant. Instead, the SIV Unit Manager, designated as 
Embassy Kabul's SIV Coordinator, now has authority to grant COM 
approval on SIV applications that clearly meet the legal requirements. 
As of March, the Embassy Kabul COM Committee reviews only those cases 
recommended for denial.
    International Security Assistance Force (ISAF) employees who worked 
for NATO countries do not qualify for the SIV programs under section 
1244 of the Refugee Crisis in Iraq Act of 2008, as amended, and section 
602(b) of the Afghan Allies Protection Act of 2009, as amended. Among 
the requirements to qualify for these programs is that the applicant 
must have ``provided faithful and valuable service to the United States 
Government'' while ``employed by or on behalf of the United States 
Government.'' ISAF employees may qualify for the SIV program under 
section 1059 of the NDAA fiscal year 2006. This program's criteria 
includes ``having worked directly with United States Armed Forces, or 
under Chief of Mission authority, as a translator or interpreter for a 
period of at least 12 months'' and, if the work was with a U.S. Armed 
Forces unit, having ``supported'' that unit. As such, an ISAF employee 
who can establish 1 year of qualifying work which was directly with and 
supporting a U.S. Armed Forces unit as a translator or interpreter 
could qualify under the section 1059 SIV program.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
    Question. What actions has the administration taken to secure the 
release of Pastor Saeed Abedini?
    Answer. The U.S. Government is dedicated to the return of U.S.-
Iranian dual national Saeed Abedini. The President, the Secretary, and 
U/S Sherman have raised Mr. Abedini's case directly with the Iranian 
Government. We have made clear that we are calling on Iran to release 
Mr. Abedini so he can be reunited with his family. At our request, the 
Swiss Government, in its role as our protecting power, has also 
continued to raise Mr. Abedini's case on our behalf, as have other 
countries that we have asked to press Iran to cooperate on these cases.
    The United States has publicly called for Mr. Abedini's release at 
the UN Human Rights Council, and has played a leading role in lobbying 
the UN Human Rights Council to extend the mandate of the Special 
Rapporteur for human rights in Iran, a useful mechanism for addressing 
in international fora our human rights concerns with Iran, including 
violations of religious freedom. We will continue to pursue all 
available options until he returns home safely.
    Question. Do you have an update on [Saeed Abedini's] health and 
status?
    Answer. According to media reports, Saeed Abedini was transferred 
to Dey Hospital on March 3, 2014, and his father has been permitted to 
visit him in the hospital. The Department of State remains in close 
contact with his family regarding his status, but due to Privacy Act 
considerations we cannot share any additional information.
    Question. What is the status of the non-governmental organization 
(NGO) trial in Cairo that has politically ensnared the International 
Republican Institute and the National Democratic Institute, among other 
organizations? Do you have any confidence that the Egyptian Government 
will resolve this issue prior to the holding of presidential elections?
    Answer. We continue to press the Egyptian Government at high levels 
for redress of the NGO trial verdict, including pardons for all 
Egyptian and international staff. We understand that Egypt has not 
pursued Interpol measures since the convictions in June 2013 (notices 
or extradition requests), and they have assured us they would not. Our 
understanding is that a general amnesty would require legislation; 
currently, Egypt has no parliament and will not have one until after 
the parliamentary elections tentatively scheduled for this fall. We 
will continue to raise the issue at high levels with the interim 
government and with future elected governments.
    Question. Can you provide assurances to the Subcommittee that 
proposed framework for rebidding the State Department's Global Aviation 
Services Contract in multiple components will maintain the high 
standards of safety and efficiency of the current contract?
    Does the State Department estimate that higher costs are associated 
with rebidding the contract in multiple components?
    Answer. When the aviation support contract was last competed in 
2004/2005, the Department solicited industry input. Firms expressed an 
interest in the Department breaking up its aviation requirements and 
being able to bid on separate functions. However, the Department did 
not have time then to consider such a division.
    Over a year ago, in January 2013, the Bureau of International 
Narcotics and Law Enforcement Affairs (INL) sponsored an Industry Best 
Practice and Vendor Identification Conference to identify potential 
business sources with the resources, capabilities, and experience to 
successfully deliver requisite services to sustain the Department's 
Aviation Fleet.
    Market research continued that spring, and all told over 200 
companies participated, with 140 firms meeting with Department 
representatives. These firms ranged from Fortune 100 companies to small 
businesses. The Department's research also evaluated whether any of the 
needed services could be provided by small businesses, including 
HubZone, Service Disabled Veterans, and Woman-owned small businesses.
    This market research enabled the INL program staff to identify more 
clearly which functions could be broken out for small business and 
which ones should be procured using unrestricted acquisition methods, 
including interoperability between all functional areas.
    This decision on how to divide the program areas into seven 
separate solicitations--four for small business set-aside and three for 
unrestricted competition--was made only after a thorough review of the 
extensive market research, and based on INL's more than 20 years of 
professional expertise on the feasibility of the successful performance 
of this INL mission using the combinations of breakout and unrestricted 
awards that they had identified.
    In developing this acquisition plan, the safety, reliability, and 
effectiveness of the aviation program have been paramount 
considerations. We are aware of the importance of this program and its 
impact on the safety and wellbeing of not only State Department 
personnel, but all those who rely upon us for air transportation. Our 
acquisition process is designed to ensure that we continue to provide 
aviation services at the same high level of safety and professionalism 
we have always maintained.
    We believe that the approach we are taking has the potential to 
save the U.S. Government money due to increased competition and reduced 
sub-contractor overhead charges. However, it is not possible to 
accurately predict the cost of the future contract arrangement compared 
to historical costs since this entails new solicitations that differ in 
terms of contract requirements, and we do not know what industry's 
final cost proposals will be. We believe that this approach will 
increase competition and will also allow us to modernize our 
operations. We identified modern industry practices and the most cost 
effective methods of providing our requirements in each functional 
area.
    Overall, we believe that we have considered the risks and benefits 
of our contracting approach for this recompete, and that our 
contracting plan will provide needed aviation services safely and 
efficiently.
    Question. What is the status of Dr. Shakeel Afridi, and is his 
release a talking point in bilateral relations?
    Answer. Dr. Afridi was convicted of aiding the banned militant 
group Lashkar-e-Islam in May 2012, though his role in trying to locate 
Osama bin Laden is believed to be the reason he remains in jail. He is 
currently in prison in Peshawar, Pakistan. In March 2013, his sentence 
was reduced from 33 years to 22 years. The Department believes Dr. 
Afridi's treatment is both unjust and unwarranted. Senior U.S. 
officials regularly and consistently raise his case with senior 
officials in Pakistan's Government, encouraging them to resolve his 
case and free him, given that bringing Osama bin Laden to justice was 
clearly in the interests of both the United States and Pakistan.
    Question. Bolstering the Baltic Air Policing Mission was an 
important step to reassure Russia's NATO neighbors that the United 
States takes their security concerns seriously. What additional steps 
can we take to provide security guarantees to Russia's neighbors both 
NATO and non-NATO, including Georgia and Moldova?
    Answer. The United States and NATO have already taken a number of 
steps to reassure NATO Allies and partners in light of the Ukraine 
crisis. In addition to the augmentation of NATO's Baltic Air Policing 
mission, these actions have included expanded U.S. air exercises 
coordinated by the U.S. Aviation Detachment in Poland, maritime 
training in the Black Sea among the U.S. and Black Sea Allies Romania 
and Bulgaria, and the deployment of NATO AWACS over Poland and Romania 
to monitor Polish, Romanian and Bulgarian air space. NATO's Supreme 
Allied Command Europe will be presenting a further package of air, land 
and sea reassurance measures in the coming weeks, and we expect Allies 
to fully contribute to this mission.
    In addition, at the April NATO Foreign Ministerial, Foreign 
Ministers agreed to increase practical cooperation with three of NATO's 
Eastern Partners: Moldova, Armenia, and Azerbaijan. All three asked for 
increased engagement with NATO during recent high-level meetings.
    The United States has worked in particular to improve Moldova's 
border security by expanding a Defense Threat Reduction Agency program. 
Under the program, the United States will give an additional $10 
million this year for equipment and training to Moldova's Border Police 
and Customs Service. The equipment will improve the overall capacity of 
Moldova's border guards and help protect against the smuggling of 
illicit nuclear/radiological materials. The United States has also 
launched a Strategic Dialogue with Moldova to enhance the security 
dialogue between our countries.
    NATO also works with Georgia in its efforts to build strong, 
modern, and capable armed forces. Years of participation in NATO 
operations have made the Georgian forces tough, skilled, and largely 
interoperable with Allied forces. NATO is committed to a continued 
program of close cooperation with Georgia via the NATO-Georgia 
Commission (NGC) and the activities laid out in its Annual National 
Program. The United States offers bilateral security assistance and 
military engagement with Georgia to support its defense reforms, train 
and equip Georgian troops for participation in ISAF operations, and 
advance Georgia's NATO interoperability. Since the agreement between 
our two presidents in January 2012 to take steps to advance Georgian 
military modernization, reform, and self-defense capabilities, the U.S. 
European Command has been working closely with Georgia's Ministry of 
Defense and Armed Forces to implement these new areas of cooperation. 
We are continuing to review implementation of this enhanced defense 
cooperation and identify opportunities to advance our strong security 
partnership.
    Question. What are the Department of State's long-term plans for 
operations out of Gaziantep, Turkey?
    Answer. As you know, the Syria Transition Assistance Response Team 
(START) is an interagency team comprised of offices and bureaus from 
State and USAID responsible for planning and delivery of non-lethal and 
humanitarian assistance. It works with international organizations, 
NGOs, the Government of Turkey, and the Syrian opposition in order to 
ensure an effective and efficient response to Syria's needs. START 
works from our Consulates in Adana and Istanbul and our Embassy in 
Ankara.
    With regard to START members' presence in Gaziantep, we constantly 
reassess plans based on developments on the ground. Currently, the 
planned U.S. presence in Gaziantep is intended to be limited and 
geographically close to Syria in order to facilitate coordination and 
delivery of assistance to the Syrian opposition and Syrian people.
    Question. What are the priorities of the State Department on 
foreign assistance to the Great Lakes Region?
    Answer. Our foreign priorities for the Great Lakes region are 
focused on resolving the root causes of conflict and instability which 
means focusing first and foremost on the Democratic Republic of the 
Congo (DRC). Our DRC priorities include consolidating peace and 
security in the country's east, improving governance through credible 
elections, and professionalizing and training Congo's security forces 
to protect its territory and citizens.
    The late 2013 defeat of the M23 rebel group in North Kivu and gains 
made against other rebel forces in eastern Congo in early 2014 provide 
an unforeseen opportunity for achieving sustainable stability in the 
DRC. The next 1-to-3 years could be decisive. The DRC is gearing up for 
local elections, its first since independence in 1960, and provincial 
and national elections before the end of 2016. Following the seriously 
flawed 2011 election, it is imperative that these next elections are 
peaceful and credible, and further the democratization of the country. 
Achieving this goal will require substantial donor assistance, 
including in the early stages of election planning.
    Another foreign assistance priority in the region is Burundi, where 
we are increasingly concerned about shrinking political space and the 
potential for political violence. USAID and the Department have 
identified an additional $7.52 million in immediate resources intended 
to support free and fair elections in Burundi scheduled for May 2015.
    Question. What actions are the State Department, USAID, or other 
U.S. agencies taking to assist the DRC in conducting successful 
elections? Is there adequate funding in the fiscal year 2015 budget 
request for this purpose?
    Answer. The DRC Government currently estimates the cost of 2014-16 
elections at more than $950 million, with $388 million needed for local 
elections next year. The DRC electoral commission hopes the government 
will provide 80 percent of funds needed to support elections, with the 
remaining 20 percent coming from donors. USAID has set aside $700,000 
in fiscal year 2013 funds to support elections programming. Allocations 
for fiscal year 2014 resources are not yet finalized. We will continue 
to work with others in the international donor community to support DRC 
elections.
    The United States also played a key role in revising the mandate of 
the UN peacekeeping mission in the DRC (MONUSCO) to enable the mission 
to provide much-needed logistical support for elections. MONUSCO is the 
only entity in the country with the capacity to fly ballot boxes around 
and provide other heavy-lift types of support. MONUSCO's mandate 
requires the DRC Government to adopt an electoral cycle roadmap and 
budget before the mission can provide support.
    Lastly, we are actively and continuously engaging the DRC 
Government on the need for inclusive, transparent elections according 
to the current constitution.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
    Question. Do you agree that other than by exercising the existing 
national security waiver authority provided in the statute, the 
President may not suspend, lift or override the requirement to impose 
sanctions under Section 1245 of the National Defense Authorization Act 
for fiscal year 2012 (Public Law 122-78) without congressional 
legislative action to suspend, amend or repeal the statute?
    Answer. On January 20, 2014, the administration issued a set of 
waivers of certain sanctions pursuant to the Joint Plan of Action 
between the P5 + 1 and Iran. These included a waiver of section 
1245(d)(5) of the National Defense Authorization Act for fiscal year 
2012 (NDAA). In accordance with the law, the Secretary determined that 
this waiver was in the national security interest of the United States 
with respect to China, India, Japan, Republic of Korea, Switzerland, 
Taiwan, and Turkey, and certified these jurisdictions faced exceptional 
circumstances preventing them from reducing significantly their 
purchases of petroleum and petroleum products from Iran. Subsequently, 
on March 10, 2014, the Secretary executed a waiver under NDAA section 
1245(d)(5) for Oman. These actions enable the current purchasers of 
Iranian crude oil (China, India, Japan, Republic of Korea, Turkey, and 
Taiwan) to maintain their current average purchase levels for the 6-
month period of the Joint Plan of Action and facilitates the 
repatriation in installments of $4.2 billion to Iran of funds held in 
restricted accounts overseas over the 6-month period.
    Question. Do you believe the final nuclear agreement with Iran 
should be considered a Treaty and be subject to ratification by the 
Senate--why or why not?
    Answer. As we are still in the process of negotiating a 
comprehensive solution to address concerns with Iran's nuclear program, 
I can't comment on the form any such solution will take. However, 
Congress has been an important partner in this process, and we will 
continue to seek Congress' support as we pursue a comprehensive 
solution.
    Question. If an acceptable nuclear agreement with Iran was reached 
in Vienna, would Iran's financial system, including the Central Bank of 
Iran, still be a concern for money laundering and terror finance?
    Answer. We have not reached a comprehensive solution with Iran. We 
cannot speculate, therefore, on what concerns we may or may not have 
with Iran in a hypothetical future scenario. We are committed to 
continuing to utilize our various authorities to enforce those 
sanctions that remain in place in furtherance of our policies on both 
Iran's nuclear program, as well as a range of other illicit conduct, 
even during the Joint Plan of Action period.
    Question. Do you consider the current Government of Iran to be 
legitimate?
    Answer. We recognize the Government of Iran. This does not mean 
that we do not have concerns with the activities of the Iranian 
Government. For example, we remain concerned about Iran's nuclear 
program, its sponsorship of terrorism, destabilizing regional 
activities, and violations of human rights. We have also maintained our 
concerns about the electoral process in Iran. Observers have noted that 
polling falls short of international standards for free and fair 
elections, including the reported intimidation of activists and 
journalists, restrictions on freedom of expression, and the 
disqualification of a large number of candidates, including all female 
candidates, for elected office by the Guardian Council, which is an 
unelected and unaccountable body. That said, we congratulated the 
Iranian people last year for participating in the political process and 
demonstrating the courage to make their voices heard. The Iranian 
people were determined to act to shape their future. As a consequence, 
Iran's president was overwhelmingly elected by the Iranian people.
    Question. April 24, 2014 marks the 99th commemoration of the 
Armenian Genocide, the campaign of mass murder of 1.5 million Armenians 
perpetrated by the Ottoman Empire from 1915-1923. There are now only a 
few known living survivors of the Armenian Genocide, including 107-
year-old Helen Paloian of Chicago, who lost her parents and two of her 
brothers.
    As we approach the 100th anniversary of the Armenian Genocide, will 
the U.S. finally honor the few surviving victims like Helen Paloian and 
officially recognize the Armenian Genocide?
    Answer. The administration has commemorated the Meds Yaghem, and 
continues to acknowledge as a historical fact that 1.5 million 
Armenians were massacred or marched to their deaths in one of the worst 
atrocities of the 20th century. The administration supports diplomatic 
efforts that support the President's call for ``a full, frank, and just 
acknowledgement of the facts.'' We will continue to support the 
courageous steps taken by individuals in Armenia and Turkey to foster a 
dialogue that acknowledges their shared history.
    Question. According to the 2013 U.S. Commission on International 
Religious Freedom's (USCIRF) report on Turkey: ``[T]he Turkish 
Government still controls access and use of various religious sites 
such as the Greek Orthodox Sumela Orthodox Monastery in Trabzon, the 
1,000-year-old Akdamar Armenian Orthodox church on Lake Van, and the 
Syriac Mor Petrus and Mor Paulus Church in the eastern province of 
Adiyaman.'' There were also reports of vandalism and violence against 
Christians, such as attacks against three Christian churches over 
Easter Week in May 2013.
    What efforts has the U.S. Government undertaken to urge Turkey to 
return the remaining Christian properties to their rightful owners? Has 
the State Department communicated their concern to Turkish authorities 
about attacks against Christians and their places of worship?
    Answer. We recognize religious minority groups continue to face 
challenges in Turkey. We are encouraged by concrete steps the 
Government of Turkey has taken over the past year to return properties 
to religious communities, including the return of the Mor Gabriel 
Monastery and 47 acres of property surrounding Halki Seminary. The 
State Department regularly engages at all levels with Turkish officials 
regarding the importance of religious freedom, including the reopening 
of Halki Seminary, legal reforms aimed at lifting restrictions on 
religious groups, property restitution, and specific cases of religious 
discrimination. Furthermore, we strongly condemn violence toward all 
religious minorities in the strongest terms, and urge Turkish 
authorities to fully pursue investigations and bring perpetrators to 
justice. We continue to encourage the Government of Turkey to follow 
through on the return of religious minority properties and to take 
additional steps to promote religious freedom, such as allowing more 
religious communities to own property, register their places of 
worship, and train their clergy.
    Question. On January 21, 2014, the Iraqi Cabinet of Ministers 
announced that it agreed to create three new provinces in Iraq, 
including in the Nineveh Plains, which is home to Iraq's vulnerable 
Assyrian Christians minority. Since 2003, terrorists have 
disproportionately targeted the Christian community in Iraq. The U.S. 
Commission for International Religious Freedom (USCIRF) estimates that 
``half or more of the pre-2003 Iraqi Christian community is believed to 
have left the country.''
    Does the U.S. Government officially support the creation of the 
Nineveh Plains Province? Has the USG offered assistance to the Iraqi 
Government to assist in the creation of the Nineveh Plains province?
    Answer. The safety and rights of the Christian communities in Iraq, 
including security concerns and protection of their lands, are issues 
of long-standing concern to the State Department. We have provided over 
$83 million in assistance to organizations working with minority 
communities since 2008 for a variety of efforts including community 
stabilization, conflict mitigation, and cultural preservation.
    After the preliminary decision of the Council of Ministers (COM) 
January 21 to convert the districts of Tuz, Fallujah, and the Ninewa 
Plains to provinces, it referred this matter to committee for further 
development. In order for this proposal to come into effect under 
Iraq's constitutional framework, the COM must review and approve it in 
the final form of a draft law and then send the draft law to Iraq's 
Council of Representatives for its review and approval. We are 
monitoring this proposal closely and view it as an internal Iraqi 
matter.
    Question. Has the U.S. Embassy in Baghdad designated a liaison for 
the Nineveh Plains that works with the Iraqi Government, Iraqi 
Christian community groups, and the U.S. Government?
    Answer. Ambassador Beecroft, Deputy Chief of Mission Desrocher, 
Deputy Assistant Secretary of State McGurk (who also serves as the 
Secretary's Special Coordinator for Iraq's Religious and Ethnic 
Minorities), and other staff meet regularly with representatives of all 
religious and ethnic minority groups, including Christians, to discuss 
their concerns and how the U.S. might be of greatest assistance to 
them. They then share those concerns with the highest levels of the 
Government of Iraq. Embassy Baghdad, Consulate General Erbil, and 
relevant State Department offices have staff dedicated to understanding 
and addressing the most pressing issues facing religious and ethnic 
minorities in Iraq and the concerns of the Iraqi diaspora in the United 
States.
    Question. On February 17, 2014, the United Nations Commission of 
Inquiry on human rights in the Democratic People's Republic of Korea 
(DRPK) published its final report, which detailed horrific crimes 
including ``extermination, murder, enslavement, torture, imprisonment, 
rape and sexual violence.'' It notes that ``the gravity, scale and 
nature of these violations reveal a state that does not have any 
parallel.'' Mr. Secretary, I traveled to North Korea as a congressional 
staffer in the late 1990's and these findings are not surprising to 
those of us who have been following this country closely. What is 
surprising is the level of detail the Commission was able to document, 
especially given how closed North Korea has been.
    What is the next step you and our Mission at the UN will take to 
follow up on this report? How will you ensure that this won't simply 
become another UN report that becomes buried on a shelf and no action 
is ever taken? Have you and Ambassador Power had conversations with our 
allies regarding taking action on this report?
    Answer. We remain deeply concerned about the deplorable human 
rights situation in the DPRK and the welfare of the North Korean 
people. We strongly support the Commission's final report, including 
its calls for accountability for the perpetrators of the ongoing, 
widespread, and systematic violations of human rights taking place in 
North Korea. In March 2013, the United States co-sponsored, along with 
Japan, the European Union, and the Republic of Korea, the UN Human 
Rights Council (HRC) resolution that established the Commission. On 
March 28 this year, the United States was proud to co-sponsor the HRC 
resolution that passed overwhelmingly. In the resolution, the HRC 
condemned the DPRK's human rights violations, renewed the mandate of 
the Special Rapporteur on the human rights situation in the DPRK, 
stressed the need for accountability for those responsible for human 
rights violations, and requested the Office of the High Commissioner 
for Human Rights to establish a field-based mechanism to strengthen 
monitoring and documentation as well as maintain visibility of the 
situation of human rights in the DPRK.
    We support the Human Rights Council recommendation that the UN 
General Assembly forward the Commission's final report to the UN 
Security Council for its consideration. We continue to work closely 
with a broad range of partners in the international community to 
sustain attention to the deplorable human rights situation in North 
Korea and to seek ways to hold the regime accountable for its human 
rights violations. Our Special Envoy for North Korean Human Rights, 
Robert King, is working with these partners and the Office of the High 
Commissioner for Human Rights to identify the most appropriate venue 
and structure for the field-based mechanism called for in the HRC 
resolution. Deputy Secretary William Burns met April 14 with the 
Honorable Michael Kirby, former chair of the Commission, to discuss the 
findings of the Commission. And on April 17, Ambassador Samantha Power 
representing the United States--together with French and Australian 
officials--convened an Arria-formula meeting for UN Security Council 
members with the Commissioners to discuss the findings and 
recommendations of the Commission of Inquiry's (COI) report on the DPRK 
human rights situation. This meeting was a further testament to the 
growing international consensus that the human rights situation in the 
DPRK is unacceptable.
                    national endowment for democracy
    Question. The fiscal year 2015 State, Foreign Operations, and 
Related Programs budget proposes a $32 million cut to the National 
Endowment for Democracy (NED), which is a 23 percent reduction from 
fiscal year 2014. According to the Congressional Budget Justification: 
``NED makes approximately 1,200 grants per year in nearly 100 
countries. NED's grants advance long-term U.S. interests and address 
immediate needs in strengthening democracy, human rights, and rule of 
law.''
    With the recent democratic upheavals throughout the globe, 
including the Arab World, Ukraine and Venezuela, do you find it 
counterintuitive that you are asking Congress to significantly scale 
back NED funding in fiscal year 2015?
    Answer. The fiscal year 2014 congressional appropriation for the 
National Endowment for Democracy (NED) included both $100,000,000 for 
their core funding, as well as an additional $35,000,000 in directives 
for specific countries in lieu Economic Support Funds that NED received 
in prior years. The President's fiscal year 2015 budget request for NED 
was straight lined from fiscal year 2014 and is consistent with past 
requests (chart provided).

------------------------------------------------------------------------
              Funding Year                    Request      Appropriated
------------------------------------------------------------------------
Fiscal year 2011........................    $105,000,000    $117,764,000
Fiscal year 2012........................     104,252,000     117,764,000
Fiscal year 2013........................     104,252,000     111,802,000
Fiscal year 2014........................     103,450,000     135,000,000
Fiscal year 2015........................     103,450,000  ..............
------------------------------------------------------------------------

    Question. The Department of State's 2013 Human Rights Report for 
Afghanistan stated: ``Although the situation of women marginally 
improved during the year, domestic and international gender experts 
considered the country very dangerous for women, and women routinely 
expressed concern that social, political, and economic gains would be 
lost in the post-2014 transition.'' Organizations such as Human Rights 
Watch have specifically expressed concerns over signs of a rollback of 
women's rights in anticipation of the transition in Afghanistan.
    In your assessment, has there been a rollback in women's rights in 
Afghanistan?
    What efforts are being made by the United States Government to 
ensure the preservation and advancement of women's rights in 
Afghanistan post-2014?
    Answer. Afghan women have made enormous strides since 2001. Girls 
now make up 40 percent of enrolled students throughout the country, 
women are represented in parliament and on provincial councils, 
businesswomen and female entrepreneurs are playing a key role in the 
economic development of their country, life expectancy for women has 
risen from 44 years in 2001 to 64 years today and female activists are 
actively advocating for social justice and seeking a peaceful 
resolution to the Afghan conflict.
    While these gains remain fragile, it is important to note the 
growing change of attitudes towards women in Afghan society as it 
signifies the potential for continued advancement. Democracy 
International polling indicates that 92 percent of Afghans believe that 
women have the right to participate in elections. Across the country, 
illiteracy and the lack of education is identified as the biggest 
problem facing women in all regions. A 2013 Asia Foundation survey 
found that 83 percent of respondents agree that women should have the 
same educational opportunities as men.
    These changes were evident on election day when Afghan women turned 
out in large numbers to vote, acted as election officials, and even ran 
as candidates. Widespread reporting indicates Afghan women were able to 
participate in significant numbers, and the Independent Electoral 
Commission's (IEC) initial estimate is that 35 percent of ballots were 
cast by women.
    As we move forward in the transition process, we will continue to 
promote Afghan women's rights to sustain these gains. The U.S.-
Afghanistan Strategic Partnership Agreement and the 2012 Tokyo Mutual 
Accountability Framework speak to the mutual commitments of the United 
States and the Afghan Government in protecting and promoting women's 
rights and role in society.
    We have also adopted a ``Gender Strategy'' in order to continue to 
mainstream gender issues into all of our policies and programs through 
transition and beyond. This includes substantial assistance to women to 
build their capacity to participate fully in Afghan society--in the 
political, economic, education, health and social realms--and, thereby, 
help build their country's future.
    There can be no progress without women's progress, and nowhere is 
this more critical than in Afghanistan. As Secretary Kerry said at 
Georgetown last November, we view women's rights in Afghanistan as a 
strategic necessity and the surest way to guarantee that Afghanistan 
will sustain the progress of the last decade.
                       question--fly america act
    Question. The Fly America Act requires all Federal agencies, 
Government contractors, and subcontractors use U.S.-flag air carriers 
for U.S. Government funded air transportation of personnel or property. 
Although the Fly America Act is current statute and should be applied 
to all U.S. Government contracts regardless of whether the clauses are 
explicitly referenced, there have been several instances in which State 
Department solicitations do not reference the Fly America Act. There 
have also been instances of foreign air carriers being used without an 
authorized exception under the Act. While the State Department has 
published clear guidance on Fly America Act compliance for personnel, 
there does not seem to be guidance concerning contracts, subcontracts, 
and Part 135 Air Carriers, which are certified by the FAA for passenger 
service of up to 30 persons or cargo service of up to 7500 lbs., and 
traditionally provide nonscheduled air transportation services. (Part 
121 Air Carriers are also certified by the FAA for passenger and cargo 
service exceeding 30 persons or 7500 lbs., and usually provide 
scheduled air transportation services.)
    Does the State Department provide guidance on Fly America Act 
compliance? Does this guidance distinguish between Part 135 and Part 
121 Air Carriers? Can you provide a copy of that guidance?
    Answer. Regarding passenger travel, the Department's Fly America 
Act policy is defined in 14 FAM 583, Use of U.S.-Flag and Foreign Flag 
Carriers. The Fly America Act, 49 U.S.C. 40118, establishes as a legal 
requirement that all U.S. Government-financed air travel be performed 
on U.S.-flag air carriers, where available as defined by 14 FAM 583, 
unless certain narrow exceptions apply. The relevant Comptroller 
General Guidelines for implementing this Act are found in B-138942, 
March 31, 1981 (see 14 FAM 583.7 for travel between two points abroad). 
The use of American Flag carriers is enforced using contracted travel 
management centers, with close oversight by government travel managers.
    The Department's policies for purchasing air and ocean shipping 
services as they relate to the various American Flag laws are reflected 
in 14 FAM 311 and 14 FAM 314. The Department maintains a close working 
relationship with the Maritime Administration and the American Flag 
Industry to ensure maximum use of U.S. Flag vessels.
    The Federal Acquisition Regulation (FAR) requires the use of clause 
FAR 52.247-63 in solicitations/contracts that have possible travel 
requirements. The clause requires that all contractors and 
subcontractors comply with the Fly America Act. Enforcement is 
accomplished during invoice payment and subsequent Defense Contract 
Audit Agency (DCAA) audits. Unauthorized expenditures for air transport 
using foreign carriers are not allowed. If this happens on one of the 
Department contracts, the Contracting Officer's Representative (COR) or 
the Contracting Officer (CO) will take necessary action to advise the 
prime contractor of the clause violation.
    All Bureau of Overseas Buildings Operations (OBO) contracts contain 
the following clauses and a letter is attached to all Federal Business 
Opportunities, FedBizOpps.gov, acquisitions announcements.
  --I.79, 52.247-63 PREFERENCE FOR U.S.-FLAG AIR CARRIERS, June 2003
  --I.80, 52.247-64 PREFERENCE FOR PRIVATELY OWNED U.S.-FLAG COMMERCIAL 
        VESSELS, February 2006
    In addition to these Department policies and authorities, there are 
several internal procedures that institutionalize travel rules and 
regulations:
  --Department personnel are required to use a designated Travel 
        Management Center (TMC) to schedule their travel after 
        receiving approved travel orders;
  --A global logistics system is used by transportation managers to 
        monitor shipments as they move through our logistics system; 
        and
  --A travel vouchering process provides a system to review and approve 
        travel to ensure that Department rules and regulations have 
        been followed.
    Question. What measures does the State Department take to ensure 
contractors remain in compliance with the Fly America Act requirements 
for all aviation transportation services paid with State Department 
funds?
    Answer. The COR monitors the day to day administration of the 
contract, to include contractor compliance with the Fly America Act. 
The COR or the Contracting Officer will advise the prime contractor of 
the clause violation. Additional enforcement is accomplished during 
invoice payment and subsequent DCAA audits should a violation be 
observed.
    Question. Are all subcontracts also required to comply with the Fly 
America Act? How are they monitored initially and is there any ongoing 
review to ensure compliance?
    Answer. The COR is responsible for ensuring all subcontractors 
comply with the Fly America Act and the Fly America Clause, FAR 
52.247.63. If a subcontractor is found to be in violation of the FAR, 
the COR would address the matter with the prime contractor, as outlined 
above. There is no requirement to consent to every subcontract and 
there is no requirement to perform a constant on-going review.
    Question. Have foreign-owned entities ever participated as 
subcontractors or joint venture partners in airlift activities in 
violation of the Fly America Act? If so, please site the incident(s) 
and what steps were then taken by the DOS to ensure future compliance.
    Answer. The Department of State does not track such violations. Any 
violation found by a COR or CO would have been settled at that time. No 
data bases or reports exist that can be searched.
    Question. How does the State Department ensure that requirements 
written for subcontracts for Part 135 international aviation services 
are not written to purposefully exclude otherwise qualified U.S. 
carriers?
    Answer. Contracting Officers read the requirements documents very 
carefully and ensure that they do not violate other FAR requirements or 
clauses. If they note a requirement that would violate the Fly America 
Act and FAR Clause 52.247-63, they would have the program office remove 
that requirement.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
    Question. In your testimony, you touched on several vital ways in 
which the foreign affairs budget is used: supporting ongoing struggles 
for self-determination and democracy, fighting narco-trafficking across 
the globe, and supporting global health initiatives like PEPFAR. One 
area that you did not touch on, however, was an area in which would see 
an increase of nearly 27 percent under the requested budget: efforts to 
counter global climate change. With the ongoing conflicts in Central 
Africa and Eastern Europe, Iran's and Syria's continued defiance of 
international norms, and many other pressing issues concerning global 
and national security, why have you prioritized climate?
    Answer. Climate change is one of the most significant global 
threats we face and addressing it is an urgent imperative. There is a 
pressing need to act now to assist developing countries in reducing 
greenhouse gas emissions while achieving economic growth, adapting to 
the impacts of climate change, and developing the technical expertise 
required to make and keep emission reduction commitments. Climate 
assistance is also an opportunity for the United States to lead efforts 
to reduce pollution, improve public health, grow our economy, and 
reduce poverty abroad. This budget requests targeted investments to 
help protect against rising seas encroaching on coastlines and coastal 
communities, prolonged and extreme droughts leading to food insecurity 
and threatening agriculture-dependent livelihoods, and other hallmarks 
of a dramatically changing climate.
    The requested funding investment will assist partners around the 
world in reducing emissions and adapting to climate change and will 
support U.S. diplomatic efforts to negotiate a new international 
climate agreement in 2015. In addition, this funding helps protect the 
significant efforts we are making at home under the President's Climate 
Change Action Plan by promoting a global response so that our actions 
are not undermined by inconsistent actions abroad. U.S. leadership is 
necessary to bring nations together and forge partnerships to safeguard 
future generations from the dangerous and costly repercussions of 
global climate change.
    This budget request includes nearly $200 million to support clean 
energy programs that promote the adoption of renewable and energy 
efficient technologies and leverage private sector investment in clean 
energy. It also includes almost $200 million to help the most 
vulnerable countries adapt and build resilience to the impacts of 
climate change and over $120 million to reduce emissions from land use.
    These investments also present economic opportunities for both the 
United States and developing country partners, including increased 
demand for U.S. technologies.
    Question. Yesterday the Senate Foreign Relations Committee approved 
legislation to provide aid to Ukraine while implementing sanctions 
against those responsible for the undermining of the country's 
sovereignty. With the pending illegal referendum in Crimea, can you 
comment on the specific steps that the administration is considering to 
prevent this attempted annexation by Russia?
    Answer. On March 16, 2014, the Ukrainian region of Crimea held an 
illegal referendum concerning accession to the Russian Federation. This 
referendum was in violation of the Ukrainian constitution, which states 
any questions ``of altering the territory of Ukraine are resolved 
exclusively by an All-Ukrainian referendum.'' By March 21, the Russian 
Federation Council had approved the treaty on Crimea's incorporation 
into the Russian Federation.
    Since the beginning of Russia's occupation of Crimea, the 
administration has engaged the international community, through 
organizations such as the United Nations, the OSCE, and the G-7 to 
demonstrate the resolute international consensus that such actions do 
not belong in the 21st century. The United States and our many partners 
have not, and will not, recognize the illegitimate annexation of 
Crimea.
    Concerning both Ukrainian and Russian individuals complicit in 
undermining Ukrainian sovereignty and territorial integrity, the 
administration has utilized, and will maintain, targeted sanctions 
against those in position to effect change in Russia's policy and 
actions. Close cooperation with European and other partners has been, 
and will remain, a fundamental component of ensuring that sanctioned 
individuals experience full financial costs. The consequent uncertain 
business climate has already had and will continue to have costs for 
Russian interests.
    As events move forward, the administration will sustain its efforts 
with our European partners in multilateral fora to resolve the crisis 
in Ukraine, and encourage Russia to return its troop deployments to 
pre-crisis levels and positions. Secretary Kerry pursued these efforts 
at the Geneva quadrilateral meeting with representatives of the 
European Union, Ukraine, and the Russian Federation on April 17. At the 
meeting, the participants agreed that all sides must refrain from any 
violence, intimidation or provocative actions; all expressions of 
extremism, racism and religious intolerance, including anti-Semitism, 
are to be condemned and wholly rejected; all illegal armed groups must 
be disarmed; all illegally seized buildings must be returned to 
legitimate owners; all illegally occupied streets, squares and other 
public places in Ukrainian cities and towns must be vacated. Amnesty 
will be granted to protestors and to those who have left buildings and 
other public places and surrendered weapons, with the exception of 
those found guilty of capital crimes. It was also agreed that the OSCE 
Special Monitoring Mission should play a leading role in assisting 
Ukrainian authorities and local communities in the immediate 
implementation of these de-escalation measures wherever they are needed 
most.
    Question. You stated in your testimony, ``Our $1 billion loan 
guarantee is needed urgently but it's only through the International 
Monetary Fund (IMF)--a reformed IMF--that Ukraine will receive the 
additional help it needs to stand on its own two feet.'' During 
Secretary Lew's testimony before the Senate Budget Committee yesterday, 
he confirmed the existence of programs within the IMF for extraordinary 
assistance, such as what is being proposed for Ukraine. In light of 
this, can you please comment on whether congressional approval of IMF 
reform is actually required to assist Ukraine?
    Answer. Ratification of the IMF reforms would support the IMF's 
capacity to lend additional resources to Ukraine and other countries in 
crisis, preserve the U.S. veto over important institutional decisions, 
and do so without increasing the current U.S. financial commitment to 
the IMF. The reforms would put the IMF's finances on a more stable 
long-term footing, which would provide the institution with more 
financial flexibility in lending additional resources to Ukraine, and 
increase Ukraine's IMF quota. We are the last major economy to act and 
our approval is the only remaining step for these important reforms to 
go into effect.
    Question. I would like to shift to Afghanistan. Just last week, 
General Austin testified that ``in the wake of such a precipitous 
departure, [the Afghan Government's] long-term viability is likely to 
be at high risk and the odds of an upsurge in terrorists' capability 
increases without continued substantial international economic and 
security assistance.'' Do you agree with this assessment? Additionally, 
what are the State Department's lessons learned from our withdrawal 
from Iraq, given the current instability and security situation there?
    Answer. Despite many advances in Afghanistan, we anticipate 
continued support will be necessary post-2014, consistent with the 
Strategic Partnership Agreement signed in 2012. This is why we seek to 
conclude a Bilateral Security Agreement (BSA) and why NATO is 
negotiating its own status of forces agreement.
    Afghanistan is different from Iraq in key respects. We have signed 
a Strategic Partnership Agreement with Afghanistan that commits us to 
continued security and economic cooperation over the long term. In 2011 
the Iraqis did not want a continued U.S. presence. They did not think 
they needed us, and no significant Iraqi official was prepared to argue 
publicly for a continued U.S. military presence. By contrast, 
consistent polling results and the outcome of the Loya Jirga in 
November 2013 show that there is broad support among political elites 
and ordinary Afghans for a continued international presence post-2014. 
Moreover, all of Afghanistan's leading Presidential candidates have 
said that signing the BSA would be a top priority once elected.
    Question. You have indicated that a bad deal with Iran is worse 
than no deal. Therefore, what do you believe would constitute a bad 
deal?
    Answer. The administration is working with the P5+1 and EU to reach 
a comprehensive solution to the international community's concerns with 
Iran's nuclear program. Our goal remains to prevent Iran from acquiring 
a nuclear weapon and ensure that its nuclear program is exclusively 
peaceful. All of the things on which we will have to reach agreement in 
the course of the negotiations are addressed in the Joint Plan of 
Action. We are looking to ensure that we have the right combination of 
measures in place to ensure Iran cannot acquire a nuclear weapon. This 
is why we agreed in the Joint Plan of Action that nothing is agreed 
until everything is agreed in a comprehensive solution. All members of 
the P5+1 must agree on any final decision, so we will be able to ensure 
that an agreement meets our needs. Anything that falls short of meeting 
our needs would be a bad deal.
    Question. As you know, in December of 2012, the United States 
closed its Embassy and recalled its diplomats in the Central African 
Republic (CAR) due to the escalating conflict. Despite the seemingly 
successful election of an interim president, sectarian violence and 
regional instability continue to rise. Can you comment on whether we 
plan on returning our diplomatic presence?
    Answer. The United States is concerned with inter-religious 
violence in the CAR and remains committed to working with the 
international community to support the CAR transitional government in 
its efforts to end the violence and build a transitional political 
process. The Department of State is reviewing the re-opening of Embassy 
Bangui in light of our strong interest in better supporting the 
restoration of democratic governance in CAR. The purpose of the review 
is to obtain a decision on whether a U.S. presence in Bangui is viable 
in light of the level of insecurity. There is no firm date for a 
decision on whether to re-open Embassy Bangui at this time. While not 
optimal, officials continue temporary duty visits and employ other 
mechanisms to monitor events in, and implement policies toward, CAR.

                          SUBCOMMITTEE RECESS

    Senator Leahy. On a personal note, I wish you luck on your 
trip tonight.
    Secretary Kerry. Thank you, Senator.
    Senator Leahy. Thank you for trying. Like in any diplomacy, 
you have to go down a lot of dead ends before you hit the right 
one. Thank you for keeping trying.
    Secretary Kerry. Thank for very much, Mr. Chairman. It is a 
privilege to be with you. Thank you.
    [Whereupon, at 12:28 p.m., Thursday, March 13, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
